<html>
<title> - HOW EFFECTIVELY ARE FEDERAL, STATE AND LOCAL GOVERNMENTS WORKING TOGETHER TO PREPARE FOR A BIOLOGICAL, CHEMICAL OR NUCLEAR ATTACK?</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
   HOW EFFECTIVELY ARE FEDERAL, STATE AND LOCAL GOVERNMENTS WORKING 
   TOGETHER TO PREPARE FOR A BIOLOGICAL, CHEMICAL OR NUCLEAR ATTACK?
=======================================================================


                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT EFFICIENCY,
                        FINANCIAL MANAGEMENT AND
                      INTERGOVERNMENTAL RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 22, 2002

                               __________

                           Serial No. 107-160

                               __________

       Printed for the use of the Committee on Government Reform






  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 _______


                       U. S. GOVERNMENT PRINTING OFFICE
84-698                         WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001
















                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

    Subcommittee on Government Efficiency, Financial Management and 
                      Intergovernmental Relations

                   STEPHEN HORN, California, Chairman
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
DAN MILLER, Florida                  MAJOR R. OWENS, New York
DOUG OSE, California                 PAUL E. KANJORSKI, Pennsylvania
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
                       Henry Wray, Senior Counsel
                        Justin Paulhamus, Clerk
















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 22, 2002...................................     1
Statement of:
    Posner, Paul, Managing Director, Federal Budget Issues, U.S. 
      General Accounting Office; Ron Castleman, Regional 
      Director, Federal Emergency Management Agency; Ray P. 
      Churay, Assistant Special Agent in Charge, Phoenix Field 
      Office, Federal Bureau of Investigation; Michael P. Austin, 
      Director, Arizona Division of Emergency Management; David 
      Englethaler, Director, Arizona Department of Health 
      Services and Response Office and Emergency Response 
      Coordinator, Arizona Department of Health Services; and Lt. 
      Col. Norman Beasley, Assistant Director for Criminal 
      Investigations, Arizona Department of Public Safety........    18
    Spencer, Robert, director of Maricopa County Department of 
      Emergency Management; Jack Harris, assistant chief, Phoenix 
      Police Department; Steve Storment, assistant chief, Phoenix 
      Fire Department; Tom Gallier, general manager, Water 
      Utilities Department, city of Tempe; and Roy Stewart, 
      president, Stewart Electric & Communications...............    86
Letters, statements, etc., submitted for the record by:
    Austin, Michael P., Director, Arizona Division of Emergency 
      Management, prepared statement of..........................    71
    Beasley, Lt. Col. Norman, Assistant Director for Criminal 
      Investigations, Arizona Department of Public Safety, 
      prepared statement of......................................    80
    Castleman, Ron, Regional Director, Federal Emergency 
      Management Agency, prepared statement of...................    49
    Churay, Ray P., Assistant Special Agent in Charge, Phoenix 
      Field Office, Federal Bureau of Investigation, prepared 
      statement of...............................................    58
    Englethaler, David, Director, Arizona Department of Health 
      Services and Response Office and Emergency Response 
      Coordinator, Arizona Department of Health Services, 
      prepared statement of......................................    75
    Flake, Hon. Jeff, a Representative in Congress from the State 
      of Arizona, prepared statement of..........................    13
    Gallier, Tom, general manager, Water Utilities Department, 
      city of Tempe, prepared statement of.......................   126
    Harris, Jack assistant chief, Phoenix Police Department, 
      prepared statement of......................................    95
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California, prepared statement of.................     2
    Hull, Governor Jane D., prepared statement of................     8
    Posner, Paul, Managing Director, Federal Budget Issues, U.S. 
      General Accounting Office, prepared statement of...........    24
    Spencer, Robert, director of Maricopa County Department of 
      Emergency Management, prepared statement of................    90
    Stewart, Roy, president, Stewart Electric & Communications, 
      prepared statement of......................................   133
    Storment, Steve, assistant chief, Phoenix Fire Department, 
      paper entitled, ``Winning Plays, Essential Guidance from 
      the Terrorism Line of Scrimmage''..........................    99

















   HOW EFFECTIVELY ARE FEDERAL, STATE AND LOCAL GOVERNMENTS WORKING 
   TOGETHER TO PREPARE FOR A BIOLOGICAL, CHEMICAL OR NUCLEAR ATTACK?

                              ----------                              


                         FRIDAY, MARCH 22, 2002

                  House of Representatives,
  Subcommittee on Government Efficiency, Financial 
        Management and Intergovernmental Relations,
                            Committee on Government Reform,
                                                         Tempe, AZ.
    The subcommittee met, pursuant to notice, at 1 p.m., in the 
City Council Chamber, Tempe, AZ, Hon. Stephen Horn (chairman of 
the subcommittee) presiding.
    Present: Representatives Horn.
    Also present: Representative Flake.
    Staff present: J. Russell George, staff director and chief 
counsel; Henry Wray, senior counsel; Justin Paulhamus, clerk; 
Steve Voeller, chief of staff to Congressman Jeff Flake; and 
Pat Curtin, office manager for Congressman John Shadegg.
    Mr. Horn. A quorum being present, this hearing of the 
Subcommittee on Government Efficiency, Financial Management and 
Intergovernmental Relations will come to order.
    We are delighted to have the Governor of the State of 
Arizona, and we are delighted to have you, you will be 
introduced to the hearing by the Councilman of this wonderful 
Town of Tempe, and we look forward to it.
    [The prepared statement of Hon. Stephen Horn follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Mr. Horn. So Councilman Arredondo.
    Mr. Arredondo. Congressman Horn and chairman of the 
committee, thank you for coming to Tempe, Arizona. It is with 
great pleasure that I have the opportunity to say hello to you 
and extend the invitation to come back.
    And of course, Congressman Flake, thank you for always 
thinking of your home town and knowing that you can always tell 
it by the Butte out there. We appreciate you bringing this very 
important issue to the forefront and allowing Tempe to be part 
of it even though it is only hosting.
    It is my pleasure today to introduce our Governor of our 
great State of Arizona, the Honorable Jane D. Hull.
    I wanted to make some points perfectly clear because we do 
not get this honor oftentimes. It is my pleasure to introduce 
this Governor because she will always be known in Tempe as the 
Governor of Education where Arizona State University is very 
important.
    While she has inherited many difficult situations, she has 
worked very diligently to keep education, our community and our 
strengths together through her whole tenure as Governor. She 
has strengthened our relationships with Mexico, and because of 
the wonderful things she has done in Tempe, Arizona, she will 
always be the Governor of Education, and that we will always 
embrace her leadership and thank her for coming to Tempe, 
Arizona.
    The Governor of the State of Arizona, Jane D. Hull.
    [Applause.]
    Governor Hull. Good afternoon, Mr. Chairman and Congressman 
Flake. We are very glad to welcome you all to Arizona.
    The chairman reminded me how well I know his daughter 
Marsha, who lives here and does a tremendous job for those of 
you who have not had the opportunity to meet her.
    But, again, we are glad to have you here today and glad to 
have you having an opportunity to hear what we have been doing 
after September 11th.
    As Congressman Flake and I both believe, the best ideas 
come from the people. They come from the bottom down, and not 
to disparage Washington or Phoenix, the capital, but they come 
much better from the bottom up than they do from the top down. 
The local citizens who live and work in the trenches are the 
ones really who should be making the decisions.
    I really appreciate the fact that you are here to listen to 
us because it is extremely important to all of us, particularly 
those of us, and the chairman is from California, that live in 
the West and think that no one from east of the Rockies even 
knows where the West is. So always glad to have you out here.
    I am here today to testify regarding the actions that were 
taken by the State of Arizona and our local governments in 
coordination with the Federal Government to address the 
challenges of assuring security of our State and our Nation. 
Along with our fellow citizens across the country, Arizona has 
watched the horror of September 11th unfold before our eyes.
    In a single moment, we witnessed the worst of human 
behavior, and in the next the very best of human behavior. And 
even more, we witnessed the tremendous spirit of Americans.
    As in other States, Arizona has demonstrated courage in the 
face of adversity. Within hours of the attack, Arizona members 
of FEMA's emergency response team, including several canine 
units, were mobilized and were one of the first groups to be 
transported by military plane to Washington. Several of them 
are hear today.
    Did the dog come? The dog is not here.
    We had the dog on the floor of the house for opening 
ceremonies. So sorry he is not here today.
    They were followed by two teams of Phoenix fire fighters, 
some of the same brave men and women who responded to the 
bombing in Oklahoma. They are recognized as some of the finest 
fire fighters in the Nation, and we are fortunate to have them 
serve us daily.
    Citizens of every background in Arizona stood in line in 
100 degree heat to donate blood. Others organized the 
collection of blankets and materials and supplies for shipment 
to both New York and to Washington.
    Arizona's children were especially moving. They collected, 
as children did in other States, their pennies, their savings, 
and donated them, as well as their own toys, to the children 
who had been left homeless and in many cases parentless in New 
York.
    Since the tragic events, which I think have changed all of 
our lives and I believe has changed all of our priorities, we 
know that the threat of possible terrorist activities will go 
on at any time and any place, and certainly what has just 
happened in Israel is appalling to all of us.
    The sense of having personal security in our lives, I 
think, is probably gone forever or changed at least. The State 
of Arizona has stood ready, however, to take all of the 
necessary actions to protect the people of Arizona and the 
United States when faced by those who would harm us and our way 
of live.
    We are not new to comprehensive efforts aimed at 
anticipating and responding to possible terrorist attacks. The 
cooperative spirit of all levels of government was evident when 
the city of Tempe hosted Super Bowl XXX in 1996. It was 
apparent again in our very successful efforts in preparation 
for Y2K.
    And in 1997, we established the Arizona Domestic 
Preparedness Task Force, consisting of Federal, State, county, 
and local agencies, public and private entities who develop 
plans for the detection, prevention, and response of terrorist 
activities.
    That was done largely because of funding from Washington, 
which we appreciate.
    Those years of preparation by true professionals allow us 
to respond quickly to the threats posed by the attacks of 
September 11th. Within minutes, the Arizona Department of 
Public Safety mobilized their operations center headed by a 
national expert on weapons of mass destruction, whom you will 
be hearing from later today.
    DPS developed a unique, secure communication system to 
insure that we have the best lines of communication among 
Federal, State, county, and local law enforcement. Arizona is a 
recognized leader in those efforts, and you will be hearing 
from them in just a few minutes.
    Also within the Arizona Department of Emergency Management, 
known as FEMA, Arizona FEMA had its emergency operations center 
open and running with Federal, State and local agencies 
standing in alert.
    This center has been in operation for decades dealing with 
national disasters and other emergencies. It directly 
communicates with State and local agencies, the FBI, FEMA, Red 
Cross, and members of major utilities and other private 
entities.
    I was out there that day, and I had also been out there 
around midnight on Y2K, and again, the setup, you have a lot of 
people who come in from all over to basically work those 24-7 
that everybody worked for so long.
    The Domestic Preparedness Task Force reviewed and upgraded 
its response plans. The State Health Lab, located within the 
FBI, stayed open around the clock to insure that any reports of 
suspected anthrax or other forms of bioterrorism were 
immediately dealt with.
    Over 900 suspected samples were tested, and I am happy to 
report that all of the samples were negative.
    I established a State Homeland Security Coordinating 
Council consisting of 12 State agencies to oversee all State 
response efforts.
    We really do not have a homeland securities czar. We have 
two or three czars. So let me introduce two of them that are 
here today. Dr. Jim Shamadan. I do not know where he is. Back 
there somewhere?
    George Weiss, and Sandra Schneider has just joined us, 
along with Steve Truitt, our Tucson Director who basically 
handled the daily coordination of these efforts.
    I activated Operation Vigilance and setup a central 
telephone number at that DPS center for leads, for reports of 
terrorism, for anything that needed to be in the intelligence 
community, and basically all of those calls were followed up by 
almost 100 DPS detectives.
    Obviously, I called on the National Guard early and often. 
We basically had National Guard at the President's request into 
the airports within a week. Like all States, we had to wait for 
the FAA training to come in.
    They have stood with the Federal agents at our border with 
Mexico, and again, they were put there in a civilian capacity 
to facilitate the commerce. Arizona is a State that, because we 
are very close to Mexico, September 11th was obviously coming 
into our produce season, as with California. We were very 
concerned about what was going to happen if the commerce could 
not go through.
    They facilitated that commerce, and it actually went very, 
very smoothly, and the rest of them will be pulling out this 
week.
    They assisted the Bureau of Reclamation with patrols at 
Hoover Dam. The bureau finally got people up there, but it was 
a long time when basically our DPA and our National Guard were 
up there and some of Nevada's.
    They worked alongside the Deputy of Maricopa County 
Sheriff's Office to provide around-the-clock security for the 
Palo Verde Nuclear Generating Plant, which is the Nation's 
largest nuclear plant.
    We worked closely with Mayor Rimsza of Phoenix, who did an 
outstanding job, along with Sheriff Joe Arpaio, in coordinating 
this multi-agency task force to insure the safety of the 
thousands of fans who attended the World Series in Phoenix. 
And, again, that was another potential terrorist threat target.
    These efforts can only be successful with cooperation and 
communication, and I think I used those words many, many times 
during September and October. On the Federal level, my office 
and the State agencies have been in regular contact with the 
White House, the Office of Homeland Security, and various other 
Federal agencies.
    We have held frequent conference calls with cabinet 
members. In fact, we love the briefings that we get about twice 
a week with Tom Ridge, if he was there, with Joe Arpaio, with 
all of the offices of the administration. They were extremely 
helpful in keeping the Governors aware of what was going on.
    I was in Washington about two or 3 weeks ago, and I had the 
opportunity of meeting not only with President Bush, but with 
Homeland Security Director--I still call him Governor Tom 
Ridge. He says he prefers Governor--to talk more about that 
relationship and certainly with Governor Ridge to talk about 
the smart border concept, the fact that we have done a lot of 
work in Arizona on technology on the border, and all we need 
now, to mention those dirty words, is funding.
    I know there are a couple of bills going through that would 
help us both with creating the smart borders that we need and, 
second, in rebuilding the Hoover Dam bypass, which basically 
the Hoover Dam has now been closed to trucks since September 
11th and will remain closed to trucks because of the condition 
of the dam.
    So we are hoping that we will get the funding to complete 
that bypass road, which has been started, so that we do not 
have that situation again. It is costing truckers and those who 
are transporting goods a lot of money to have to go clear 
around, as Jeff knows, but you cannot come down that road, and 
we are losing some trucks periodically.
    So, again, we are hopeful that can be resolved.
    I was recently in Mexico with Governor Fox, and he has 
insured his commitment to working with us with the border 
problems. They have done a lot in Mexico to alleviate some of 
the problems that we have had.
    I believe that Arizona enjoys one of the finest interagency 
cooperative spirits in the Nation. There is always room for 
improvement. In that effort, in the next 2 months, two 
conferences related to terrorism will be held in Arizona.
    One is designed to educate first-responders and health care 
providers on the potential threats of bioterrorism. It is co-
hosted by my office, by the Department of Health Services, the 
Department of Military and Emergency Affairs, and the FBI.
    A second conference will deal with communications 
interoperability and is co-hosted by the Arizona Criminal 
Justice Commission. As was evidenced in New York, radio and 
electronic communications between first-responders is a dire 
necessity. This situation, particularly in Arizona, needs vast 
improvement.
    I appreciate the Federal funds that are planning to come 
our way to specifically address this crucial issue to all of 
the States.
    I would be remiss if I didn't bring just two other issues 
to your attention. First, the attack and response to terrorism 
both here and abroad shows how vital Arizona's military bases 
are to the defense of our country. We need to do everything we 
can do to protect them, to protect Luke, to protect Yuma, to 
protect Fort Huachuca, and to protect Davis-Monthan, and 
certainly we work with that a great deal, and I would just 
remind you about the base closings.
    Second, some of the Federal funds that are available for 
security purposes have been designed to include a match of 
various sorts from State and local governments. As you well 
know from the West, and I am sure you have heard from a lot of 
the Governors; you have not heard from me about, ``the 
financial condition that most of the states are in.''
    Yesterday I signed a bill that will remove another $230 
million from the 2002 budget. We have already removed about 
$675. So the 2002 budget is down $1 billion, and hopefully will 
balance in July.
    We now begin the job of cutting another $1 billion from the 
2003 budget. That is about 17 percent of the State's budget, 
and I have obviously tried very hard not to hit education.
    So it is tough for all of the Governors, but again, I 
believe that what is being done in Washington is extremely 
important, and I would only ask that as we go for matches, that 
one understands that all of the States and on behalf of 
literally all of the Western States, we are all suffering, and 
it will be difficult for us to make matches.
    Finally, just in ending, and again, I thank you for coming, 
and I thank you for listening; the State of Arizona is in the 
forefront of the Nation's efforts to prepare for and, if 
necessary, respond to terrorist threats whenever and however 
they occur.
    Our local first-responders stand shoulder to shoulder with 
our Federal colleagues. We appreciate the tremendous 
cooperation that we have received from all the Federal and 
local agencies. We appreciate the briefings and the 
conversations that we have had with the cabinet officers, with 
the officials of FEMA, and certainly Governor Ridge is talking 
to our people once a week, which we really appreciate.
    I think we have set in place a very flexible, responsive, 
domestic preparedness program that assures that Federal, State, 
and local officials work together as seamlessly as possible to 
meet any challenge.
    I want to thank you for this opportunity to appear before 
you, and thank you again for coming West, even though both of 
you are from the West, and I know that you will enjoy hearing 
from our agencies and from the panels that are setup.
    They are the true experts, and more than that, they are the 
people who have really pulled this together because they know 
what they are doing.
    With that, I want to thank you very much, and if you have 
any questions, I would be glad to answer.
    [The prepared statement of Governor Hull follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Horn. Well, we thank you very much for giving us the 
really leadership that you have provided as Governor and the 
cooperation you received from it.
    And I want to now ask that Representative Flake, on behalf 
of the committee here, will thank you for us.
    Mr. Flake. I just want to echo those words. I know that you 
have a very busy schedule. You have outlined some of the issues 
that you are dealing with, and so we appreciate it a great 
deal.
    It speaks to the importance that you place on this issue, 
and we all know that one of the hallmarks of the whole 
administration has been the interagency coordination and 
cooperation that exists here in Arizona. And we at the Federal 
level learn a lot from that because we have our own problems 
with interagency issues, and the fact that you were able to 
pull together such a great team in such a short period of time 
and carried out such great work speaks well for you, and we 
really appreciate you carving out time in your busy schedule to 
be here.
    Thank you.
    [The prepared statement of Hon. Jeff Flake follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Governor Hull. Thank you very much. Have a nice weekend.
    Mr. Horn. Thank you.
    Mr. Arredondo. Chairman Horn, hopefully you, too, as we in 
Arizona and particularly Tempe have come to appreciate the 
Governor, because of the wisdom and the leadership she has 
provided, we congratulate her and thank her for coming to 
Tempe.
    Congressman Flake, prior to me introducing our next guest, 
I would be remiss upon our city, our educators if I did not say 
thank you to the hard work you have carried back in Washington, 
DC, to provide those homeless kids a safe haven to attend 
school.
    I thank you for your leadership, your hands on approach to 
continue the support where kids have an opportunity every day 
to succeed. Thank you for representing our district very well.
    With that, it is with great pleasure that I get to 
introduce the Honorable Skip Rimsza. Skip was tied up in 
traffic on the Phoenix side. So it took him a little longer to 
get to the Tempe side. [Laughter.]
    But he is here, and we congratulate Mr. Rimsza for the 
things that he has stood for and has done in Phoenix.
    We know for a fact that he has overseen already 16 new 
additional city parks to enhance the quality of life for his 
citizens. But more so and the most important thing that we 
would like to recognize and thank him is for the new units in 
the Phoenix Police Department dedicated to solely fighting hate 
crimes.
    You know, I could go on and on, but the real person is 
here, and it is time for me to introduce the Honorable Skip 
Rimsza, Phoenix Mayor.
    [Applause.]
    Mr. Rimsza. Thank you very much.
    I do apologize for my late arrival.
    We are very pleased to host you here in our community, and 
I know the city of Tempe is delighted to have you here in our 
facility.
    I will just take a few short moments to chat with you about 
the urban center challenges we have for homeland security, and 
there are a couple of things that at least from my perspective 
are important to touch upon.
    First, we understand in the city of Phoenix that there is 
no single agency capable of expectory planning by themselves 
for the kinds of things that we are now forced to consider as 
potential elements that happen in urban centers. So you being 
here today and the partnership, frankly, that has developed 
since September 11th between local government, State 
government, Federal Government are nothing short of profound.
    I would refer quite personally to the World Series game, 
the very first one that was played here in Phoenix right after 
the September 11th attacks as one where all levels of 
government came together to provide the level of security that 
was, I think, critically important for that event to be a 
success.
    The collaboration at that event with the Federal Government 
and State and local organizations was nothing short of 
profound, and I do think the September 11th events have caused 
us all to set aside any parochial perspectives we might have 
had and find even better ways to work together.
    We think the collaboration that has resulted in the new 
funding that is being discussed for us is very important to us 
and you.
    One of the key issues for cities, I would tell you, is 
this. We would like to make sure that Congress recognizes that 
cities really are the places where public safety is provided. 
To give you an example, cities in Arizona have about 10,000 
public safety employees. The State itself has 1,000.
    So we are kind of the place we like to think, and I think 
the Vice Mayor would agree with me, where the rubber meets the 
road when it comes to public safety. So as you look at the 
funding that might be available to protect our communities from 
any kind of terrorist acts, we would like you to very carefully 
consider the places where the work is being done today and make 
sure the resources get to those locations.
    I also have to take a short moment and speak about urban 
center cities. From our perspective, and we think it is broadly 
held, that locations where terrorists might focus their 
activities will tend to be densely populated urban centers. 
Once again, therefore, we would suggest that the allocation of 
any resources or partnerships be focused on those urban centers 
so that they can respond to the likely locations of attacks.
    There are some exceptions to that I think we all recognize, 
such as nuclear power plants or water supply sources that are 
outside urban centers, but it would be something we would 
really like you, too, to think about as you work through this 
process.
    The next one is sustaining the funding. I've had both the 
joy and the pleasure and the pain of dealing with the COPS MORE 
Grants over the years, and it was nice to have the Federal 
Government pickup a portion of adding new police officers, and 
it was helpful, and we took advantage of that.
    But the reality is many urban center cities, in particular 
were not able to take full advantage of it because, unlike 
Phoenix, they weren't growing. Their tax bases weren't growing, 
and as you may know and may recall, cities had to commit to 
keep those officers on after 5 years out of their own operating 
budgets.
    And that is, I think, a challenge that should be considered 
as you look at funding for these kinds of security investments, 
not just initial funding for the capital equipment or the 
additional training, but some base maintenance funding to keep 
equipment and, frankly, the people sharp for, I think, decades 
to come.
    In fact, from our perspective, this is the new reality. 
This is not something that is going to go away ever in the 
future of our country. And so some baseline permanent funding 
after the initial large funding I think is important to 
consider.
    I would suggest to you that the FEMA model for urban search 
and rescue has been very successful for our communities. As you 
may be aware, the city of Phoenix's fire fighters responded to 
an earthquake in California, obviously a tremendous disaster.
    We also were onsite in Oklahoma City and were part of the 
recovery effort in New York City. The one challenge with that 
for us and, I think, you is that response is 72 hours after the 
incident, and I think all of us are recognizing that this 
investment that we are talking about making now needs to be put 
in place in a way that we can respond within minutes, if 
possible hours probably at the longest.
    So it is a different kind of investment than the FEMA 
model, but the FEMA model is not a bad backdrop to consider for 
your processes.
    Just to kind of give you a quick outline for that, FEMA 
funds for us the capitalization of some fairly sophisticated 
equipment, some very specialized training from our fire 
fighters. We take that equipment. We have it palletized and 
stored in a location here in the valley, and then if called by 
FEMA, we can rally our fire fighters and police officers and 
that equipment in about 3 days to put them on the scene to help 
with any rescue and recovery efforts.
    That system works pretty well with the one enhancement we 
think is necessary, which is having equipment more readily 
available and having the training more active on a more day-to-
day basis.
    The last thing I would mention to you, which is a critical 
issue to every public safety system in the country, is the new 
radio systems that we are all capitalizing today. The Phoenix 
City voters just approved $120 million to replace our old, 
antiquated radio system with a new 800 megahertz radio system, 
and I am pleased and proud that the Phoenix voters wanted to do 
that.
    We are doing this so we can communicate directly with other 
agencies internal to the city. That would be so that a police 
officer and a fire fighter and someone from Streets and 
Transportation can all communicate at the same time on the same 
radio system.
    At the same time, we want to be able to communicate with 
other public safety agencies either in other cities, like 
Tempe, or the State. One of the problems that appears to be 
arising with this new, very significant investment, virtually 
every city in America, is the sale of the 700 megahertz public 
safety spectrum, and that's because, to put it simply, there is 
a level of over-speak between the two systems that is 
problematic.
    You might have heard or recall that in New York some of the 
challenges that they experienced when the fire fighters and 
police officers entered the building is the loss of 
communications. One of the reasons we are all looking to 800 
megahertz is to avoid that kind of loss because it's a better 
frequency for public safety officials to operate on.
    One of the things we are all concerned about is if we 
inadvertently sell the 700 megahertz system and then create 
over-speak. All we are asking is solve that problem before we 
sell those radio frequencies so that our officers do not get 
blocked from critical communications when they are most 
important.
    If you do not mind, we have a short video I think we are 
going to play for you, and then I will conclude.
    [Video played.]
    Mr. Rimsza. I would just conclude that this model is one 
that is a good base model. The challenge for all of us is how 
to make this even more efficient and more quickly able to 
respond.
    I can tell you from the perspective of us locals, the 
enhanced training and equipment that is available here within 
our community is very important to us, and we have always been 
glad to partner with FEMA in this.
    I would hope though, as always, that we never have to 
respond ever again to one of these tragedies, but it makes me 
feel good, as Mayor, that we are prepared to.
    Thank you.
    Mr. Horn. Well, we thank you very much, Mr. Mayor.
    I was telling the staff on the way out that your fire 
department has been No. 1 in the Nation and that we can be 
proud of that. I assume they are still No. 1.
    Mr. Rimsza. I am certain they are. If they were not, they 
would be calling me for more equipment. [Laughter.]
    Mr. Horn. Well, we thank you very much for that overview.
    Mr. Arredondo. Chairman Horn, Congressman Flake, it is time 
for you to get on to your business. We at Tempe want to thank 
you for being here.
    I would be remiss if I did not allude to the fact that our 
two Assistant Police Chiefs are here in the back. If they would 
please stand.
    And our fire department is represented here, and we will 
even have some of our staff members participating in your 
panel. As you have requested, there will be a list given. You 
do something that no other congressional hearing folks do and 
that is the recognition of the people that really make this 
happen.
    We at Tempe extend our warmest hello to you and 
congratulations in being here.
    Thank you.
    Mr. Horn. Well, that is well put because that is exactly 
what we are trying to do, and as we all know, September 11, 
2001 the world witnessed the most devastating attacks ever 
committed on U.S. soil. And as we have looked about this, we 
are going around to various cities and parts of America, and we 
wanted those who live in the great State of Arizona and its 
fine cities to know that they can rely on these systems should 
the need arise.
    We have been interested in the chemical attacks, the 
biological attacks, the water supply, and as everybody knows in 
this room, the West has always had problems with water supply.
    I look with great interest on what is happening in Arizona, 
your productivity in food and orchards and all the other 
things, and we want to make sure that it's purified and not 
compromised by some of the terrorists.
    When I was in Europe a month ago, four terrorists tried to 
poison the Rome water supply, and so this is the kind of thing 
we face. We are going to ask during this and get ideas from 
people that are going to be witnesses so that we can be better 
prepared for that type of thing, which we have never had to 
face before September 11th.
    So let us bring the first panel here, which is Councilman 
Arredondo and Paul Posner, who is the Managing Director. I will 
announce them as they start with their presentation.
    And Ron Castleman, Ray P. Churay, and Michael Austin, David 
Englethaler, and Lieutenant Colonel Norman Beasley. We have 
seats for Panel 1 right here, and we will start the way we 
generally do.
    We will swear in all of the witnesses, and if you do not 
mind, just stand and raise your right hand.
    [Witnesses sworn.]
    Mr. Horn. We will start as we do always in Washington and 
out in the field with the U.S. General Accounting Office as 
headed by the Comptroller General of the United States, who has 
the best job and the toughest job in Washington. He has a 15-
year term and nobody can mess with him. [Laughter.]
    Including Congress and Presidents, and we have got an 
excellent one in Mr. Walker right now.
    The expert from the General Accounting Office now, Paul 
Posner is Managing Director, Federal Budget Issues of the U.S. 
General Accounting Office. GAO works for the Congress and not 
the executive branch. We look to them, and I looked at the 
terrorism blue books. There must be at least 50 of them 
already. I mean, they are on top of this, and we appreciate 
that.
    So, Mr. Posner.

 STATEMENTS OF PAUL POSNER, MANAGING DIRECTOR, FEDERAL BUDGET 
ISSUES, U.S. GENERAL ACCOUNTING OFFICE; RON CASTLEMAN, REGIONAL 
 DIRECTOR, FEDERAL EMERGENCY MANAGEMENT AGENCY; RAY P. CHURAY, 
   ASSISTANT SPECIAL AGENT IN CHARGE, PHOENIX FIELD OFFICE, 
 FEDERAL BUREAU OF INVESTIGATION; MICHAEL P. AUSTIN, DIRECTOR, 
 ARIZONA DIVISION OF EMERGENCY MANAGEMENT; DAVID ENGLETHALER, 
 DIRECTOR, ARIZONA DEPARTMENT OF HEALTH SERVICES AND RESPONSE 
 OFFICE AND EMERGENCY RESPONSE COORDINATOR, ARIZONA DEPARTMENT 
  OF HEALTH SERVICES; AND LT. COL. NORMAN BEASLEY, ASSISTANT 
  DIRECTOR FOR CRIMINAL INVESTIGATIONS, ARIZONA DEPARTMENT OF 
                         PUBLIC SAFETY

    Mr. Posner. Thank you, Mr. Chairman.
    And it is a pleasure to be here in the Phoenix area. I want 
to again commend you for holding field hearings that are 
particularly relevant since taking a bottomup look at our 
system is so important for how we prepare to protect the Nation 
from terrorism attacks.
    It is somewhat novel to have a highly intergovernmental 
issue be focused in the national security area. We are used to 
dealing with State and local governments in document program 
areas, whether it's education and healthcare and law 
enforcement and a variety of other things. Well, we have 
learned that nothing we do in the Nation can be done by one 
government alone; that critically any national goal, whether it 
is protecting public health or whether it is educating 
handicapped children is critically dependent on State and local 
governments and our ability to form partnerships with them over 
time.
    What we are learning now is protecting the Nation's 
boundaries and borders itself from foreign threats is equally 
dependent on harmonious and important working relationships.
    What does this mean then for what we have to think about 
going forward? One is that it means Federal initiatives are 
really not Federal. They are national in nature, and that is 
one of the reasons why meeting together at the local level is 
so critical.
    It means that Federal orders and policies mean very little 
if they are not done in partnerships with State and local 
governments and the private sector to address these challenges.
    And ultimately the challenge for us at the Federal level, 
we have to balance the national interests in obtaining 
preparedness and mitigation with the unique needs and interests 
of our local communities. One size will not nor should it fit 
all.
    For both sides this kind of arrangement raises 
opportunities and challenges. By working collectively with 
State and local governments, the Federal Government gains the 
opportunity to get support and resources that we simply do not 
have.
    I mean, we cannot defend and protect water systems in this 
country or transit systems or anything else. These are owned by 
other levels of government. Fundamentally you were the first-
responders to every single serious incident, and we do not. So 
we get the chance to enhance the protection of the Nation. We 
risk the potential that we are going to have inconsistent 
approaches and we are going to have to basically adopt the 
priorities that local governments feel are important.
    Some Federal officials may feel that is a risk, but 
nonetheless, we have no other choice but to work through the 
system.
    Local governments gain support and financing, as well, for 
critical local issues. But they risk being exposed to national 
standards and requirements that may not particularly fit well 
with particular local values and conditions.
    With that as kind of the framing, I want to briefly reprise 
the written statement that will be entered in the record with 
your permission.
    Mr. Horn. Without objection, that is automatically in the 
record.
    Mr. Rimsza. Thank you.
    The main points are these. A national strategy at the 
Federal level is critical. We at the Federal level have many 
players, many agencies involved in this whole area of 
counterterrorism and homeland security. At latest count, over 
40 Federal agencies have a role to play.
    The concern is obviously that this breeds the potential for 
fragmentation, overlap, duplication, inefficiency. We think 
this is a longstanding problem with Federal initiatives across 
the Board, not just homeland security, particularly important 
here because the States are so large.
    There is also a concern that there is the potential for 
this problem to get worse, not better, after crisis. Well 
intentioned people across the board attempt to become relevant 
in solving problems.
    In the process, for example, after Oklahoma City, we noted 
that a number of agencies got into the act of providing 
assistance to State and local governments for training and 
planning.
    That may have been welcomed by some States and local 
governments. Others told us that created widespread confusion 
and overlap and frustration in dealing with the Federal 
Government.
    So the concern is the crises like we have just experienced 
presents opportunities, but they also present potential 
challenges, and the fragmentation could get worse before it 
gets better, as a lot of agencies get in the act.
    We have recommended consolidation of State and local 
planning grants and training grants at the Federal level, and 
we are pleased that at least the President's budget does 
suggest the need to do that, and as you know, he has 
recommended a block grant to get that done.
    The second point going forward is the need for strong 
national goals and indicators. We have something at the Federal 
level called the Government Performance and Results Act, which 
really was modeled after State and local governments more than 
anything we have done. This sets the table that anything we do 
in the budget or in management should be informed by some 
expectation of what we are going to accomplish in terms of the 
results.
    We think the preparedness will not be sustainable. Funding, 
support, programs are going to be difficult to sustain if we do 
not have informed, balanced, national level kinds of measures 
done in partnership with State and local governments and the 
private sector.
    Without it, we lack the ability to make budget decisions 
based on performance. This could lead to either the abandonment 
of effective programs or the endless funding of ineffective 
ones.
    The point is: How do we move then from an environment where 
we can really start to measure what we are trying to do, 
measure levels of preparedness, measure the impact of Federal 
funds, particularly relevant now that we are ratcheting up that 
level?
    And what we mean by this is not just measuring input, not 
the number of people in training, although that is part of it. 
But trying as best we can, as difficult as it is, to measure 
some kinds of indicators about how well prepared we are.
    Obviously there are a lot of efforts already underway in 
the State and local community and at the Federal community. 
Exercises, the Emergency Management Assistance Accreditation 
Programs that States and local governments are working among 
themselves are part of the question because the idea of how you 
measure performance and set goals is not one that any one level 
government, again, should do, certainly not the Federal 
Government.
    These standards need to be national and not Federal, and 
ultimately they need to be premised on hard work reaching some 
agreement of what does it mean to be prepared. Is it the lack 
of an event? Is it the limitation or containment of any damage 
that does happen as a result of an event?
    Those are some of the difficult questions we are going to 
have to start thinking about.
    Finally, we need to think about how we best define a 
Federal role to promote State and local preparedness in ways 
that really foster the kind of partnership we are talking 
about. States and local governments' resources, as folks here 
know, alone are not sufficient.
    We can build on the all hazards approach to emergency 
management. That is important. If you have experience and you 
are prepared for an earthquake and other kinds of disasters, 
you are well on the way to being prepared for this, but this 
threat is different.
    It crosses conventional boundaries and involves new actors, 
different skills, new legal authorities, the private sector in 
ways really that are very, very difficult to fashion as people 
here know better than I.
    So the challenge for the Federal Government is how can we 
design tools to help harmonize the interests of all the 
partners, and here we offer some suggestions and a statement 
based on what we've learned elsewhere in the Federal system.
    The point is our goal should be to enhance, not to preempt, 
and our goal should be to protect others who may want to take 
our money and supplant it and replace it for their own funds. 
We want to somehow strike this balance.
    In the area of grants, for example, there are three or four 
challenges we think we need to kind of think about as we go 
forward. One is to insure that the money is well targeted to 
places that, No. 1, have the greatest threats and, No. 2, have 
the least financial capability of delivering the public 
services on their own, and this means devising some reasonable 
indicators that can separate out these kinds of issues.
    We have suggested in disaster assistance that FEMA do a 
better job of articulating criteria to define when a 
jurisdiction is more capable than others of handling 
emergencies of certain types. We need to do a better job at the 
Federal level, not just in this area, but across the board in 
targeting Federal money.
    The second issue that is perennial that challenges us 
throughout the Federal Assistance System is fiscal 
substitution. Clearly, we are trying to offer money because 
there is a problem. If the money, in fact, is used by State or 
local governments, as we often find it is, to replace local 
money, then, in fact, we have not accomplished anything except 
general fiscal relief.
    In fact, we did a study that said in general across the 
board about 60 cents of every Federal dollar given to State and 
local governments is supplanted. There are ways to protect 
this. We have maintenance of effort provisions. We find that 
some areas are more vulnerable to this than others, 
particularly areas where State and local governments have 
longstanding involvement. The substitution is a particular 
problem.
    A third related issue is accountability. We know that 
whenever the Federal Government grants money, the State and 
local governments have their own accountability for their own 
citizens, but somehow we have to develop procedures to insure 
that there is some performance reporting back to the Federal 
level.
    One thing we have learned about block grants over the years 
is if we do not have meaningful ways of telling appropriators 
what we are getting for that money, notwithstanding the 
discretion and flexibility we give to those communities, 
congressional interest withers away and those programs tend to 
wither away as well or get recategorized.
    So as we think about this FEMA block grant, meaningful ways 
to kind of translate local performance into results that can be 
reported consistently at the national level really important.
    Another important strategy, encourage partnerships below 
the Federal level. Just as we are fragmented, we know that 
communities in metropolitan areas, for example, face tremendous 
barriers in working together across boundaries.
    You have solved them much more so than we have because you 
have had to, but we know that an emergency management and 
otherwise economies of scale can really make a difference. 
Mutual aid agreements are a testament to that.
    The question is: As we design Federal programs, can we 
encourage more of that to take place? Would that be useful?
    The metropolitan planning model of the Department of 
Transportation's ICE TEA is an example where all grants 
essentially have to get screened by a regional planning agency. 
Whether that works or not here remains to be seen, but some 
kind of mechanism to encourage that process is important.
    Ultimately what we need to think about as we design 
assistance is sustainability. We want to have our initiatives 
make a difference for the long and not the short-term.
    The Federal Government does best at starting and building, 
stimulating capacity. Ideally we would like to see these 
initiatives become institutionalized and build support, get a 
head of steam on their own on the local level. This might 
happen if we're aiding the kind of functions that provide 
multi-purpose functionality, not just terrorism preparedness, 
but preparedness for other kinds of hazards.
    The public health example is a good one where when fighting 
bioterrorism, we're really strengthening the public health 
system to protect against a variety of threats, and that kind 
of thing augers well for the prospects of enhancing our long-
term preparedness.
    A few other tools that we talk about in the testimony are 
in the area of regulation. Crises have a way of prompting 
national standards, and at times we visited some communities 
where already some local governments are telling us that they 
are facing challenges in coming to, dealing with large, for 
example, national rail systems and rail corporations, and how 
we can develop ways to better regulate if we need to and 
develop standards that are really cooperative in nature. That 
is a real challenge.
    And finally, the concern of information sharing. How do we 
insure that we share the kind of intelligence that State and 
local governments need to really effectively target their own 
resources in areas?
    As you know, Presidential Directive 3, Mr. Ridge last week 
announced a new warning system. The challenge of providing 
State and local governments with access to sensitive national 
security information that is nonetheless vital for their 
citizens is a challenge we are going to be facing.
    I know there is some legislation that has been developed 
that certainly warrant some thought and consideration.
    The point is that we can help them better face their 
challenges in terrorism by better sharing information, but they 
can also help us, and that is the last point here. This is a 
two-way street. This is not just the Federal Government coming 
down as a benefactor.
    Basically State and local governments have vital resources. 
They are essential to help us interdict and prevent terrorism 
as well. With 600,00 local police officer, 200,000 sheriff 
staff, you have really the resources to know better what is 
going on in communities than the Federal Government does. And 
how can we find ways to get that information back from you and 
utilize it productively to defend against these threats? That 
is an emerging challenge.
    We notice the INS is starting to contract with certain 
communities to have them monitor overstayed visa applicants, to 
take advantage, in other words, of this great capacity that is 
out there.
    So ultimately, in conclusion, the three points that are 
essential we think for preparing defending the Nation remain: 
defining a strategy, to defining the national objectives and 
the Federal role, developing reasonable and meaningful 
national, not Federal performance accountability standards, and 
designing tools and choosing them well and effectively to get 
the job done.
    [The prepared statement of Mr. Posner follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Horn. Thank you very much. We appreciate that overall 
national, State, city and regional perspective.
    We now go to Mr. Ron Castleman, the Regional Director of 
the Federal Emergency Management Agency, FEMA. He is based in 
Dallas, and we are glad to have you here.
    And I might add to all you do not have to read everything 
that you have. If you could summarize that would be helpful 
because we have got ten more witnesses.
    Thank you.
    Mr. Castleman. Good afternoon, Mr. Chairman and members of 
the subcommittee. I am Ron Castleman, Regional Director of 
Region VI of the Federal Emergency Management Agency, and it is 
a pleasure for me to be here today to discuss the pressing 
matter of how FEMA is assisting State and local governments to 
prepare for a potential terrorist attack involving biological, 
chemical or nuclear agents.
    FEMA is the Federal agency responsible for leading the 
Nation in preparing for, responding to and recovering from 
disasters. Our success depends on our ability to organize and 
lead a community of local, State, and Federal agencies and 
volunteer organizations.
    The Federal Response Plan forms the heart of our management 
framework and lays out the process by which interagency groups 
work together to respond as a cohesive team to all types of 
disasters.
    In response to the terrorist events of September 11, 2001, 
the Federal Response Plan has proven to be an effective and 
efficient framework for managing all phases of disasters and 
emergencies. Much of our success in emergency management can be 
attributed to our historically strong working relationship with 
State and local partners.
    Through our preparedness programs, we provide the 
financial, technical, planning, training and exercise support 
to give State, local, and tribal governments the capabilities 
they need to protect public health, safety, and property both 
before and after disaster strikes.
    In meeting the challenges ahead for State and local 
government, FEMA's Office of National Preparedness is becoming 
more robust. The mission of the Office of National Preparedness 
is to provide leadership in coordinating and facilitating all 
Federal efforts to assist State and local first-responders, as 
well as emergency management organizations with planning, 
training, equipment, and exercises.
    We continue to work with all 50 States and territories and 
federally recognized Indian tribes and Alaskan native villages 
to implement our current and other grant programs to assist 
State, tribal, and local governments.
    Our programs enhance their capabilities to respond to all 
types of hazards and emergencies, such as chemical incidents, 
incidents involving radiological substances, and natural 
disasters.
    With respect to Arizona, we continue to work very closely 
with the Arizona Division of Emergency Management. Through our 
terrorism consequence management preparedness assistance grant, 
we support the State's activities in the readiness arena. With 
FEMA financial support, Arizona has in place its domestic 
preparedness task force that concentrates on such activities as 
developing and testing the State's strategy for preparedness 
and response; identifying necessary steps, Arizona communities 
need to take to prepare for weapons of mass destruction events; 
and establishing the most appropriate training curriculum to 
deal with domestic terrorism.
    Further, each of Arizona's counties received FEMA funds 
from Arizona to participate in a statewide domestic terrorism 
risk assessment.
    Finally, our terrorism consequence management assistant 
grant is also supporting various training workshops throughout 
the Phoenix area that cover mass fatalities, anthrax response, 
and other aspects of a response to a terrorist event.
    We recognize that chemical, biological, and radiological 
scenarios will present unique challenges to the first-responder 
community. Of these types of attacks, we are in many ways 
better prepared for chemical attack because such an incident is 
comparable to a large scale hazardous material incident.
    In such an event, EPA and the Coast Guard are well 
connected to local hazardous material responders, State and 
Federal agencies and the chemical industries. There are systems 
and plans in place for response to hazardous material systems 
that are routinely used for both small and large scale events.
    EPA is also the primary agency for hazardous materials 
functions of the Federal Response Plan.
    Bioterrorism, on the other hand, presents a greater 
immediate concern. With the covert release of a biological 
agent, the first-responders will be hospital staff, medical 
examiners, private physicians, and animal control workers 
instead of the traditional first-responders with whom we have a 
long-term relationship.
    The Department of Health and Human Services leads the 
efforts of the health and medical community to plan and prepare 
for a national response to a public health emergency and is the 
critical link between the health and medical community and the 
larger Federal response.
    Concerning the radiological threat, the Federal 
Radiological Emergency Response Plan has 17 Federal agency 
signatories, and the Nuclear Regulatory Commission is the lead 
Federal agency for coordinating the overall response, and FEMA 
is responsible for coordinating nonradiological support to 
that.
    Finally, FEMA's Office of National Preparedness has asked 
the FEMA regions to provide information on what the region has 
done to review and modify State and local radiological 
emergency preparedness plans for response to a sudden 
catastrophic event.
    It is FEMA's responsibility to insure that the national 
emergency management system is adequate to respond to the 
consequences of catastrophic emergencies and disasters 
regardless of cause. We rely on our partners at the State and 
local level, and without question, they need support to further 
strengthen capabilities and operation capacity.
    FEMA must insure that the national system has the tools to 
gather information, set priorities, and deploy resources 
effectively.
The creation of the Office of National Preparedness and our 
emphasis on training, planning, equipment, and exercises will 
enable us to better focus on our efforts and will help our 
Nation become better prepared for the future.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Castleman follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Horn. We thank you very much. That's a very thorough 
statement and very helpful to us.
    Our next witness is Ray P. Churay, Assistant Special Agent 
in Charge, the Phoenix Field Office for the Federal Bureau of 
Investigation.
    Mr. Churay. Good afternoon, Chairman Horn, Congressman 
Flake, members of the subcommittee, and distinguished 
participants from Arizona.
    Thank you for the opportunity to represent the FBI at this 
hearing.
    Terrorist events of recent years both in the United States 
and elsewhere have driven home the importance of the absolute 
necessity of the FBI to work closely with State and local law 
enforcement and first-responder agencies.
    The Phoenix FBI Joint Terrorism Task Force, the FBI's 
National Infrastructure and Computer Intrusion Program, and the 
FBI's Weapons of Mass Destruction Program are the main vehicles 
facilitating that cooperation and support.
    Each of these efforts address both international and 
domestic terrorist threats that involve all appropriate local, 
State, and Federal law enforcement, first-responder, and 
infrastructure related agencies.
    I have provided a more detailed statement. However, in the 
limited time available, I would like to provide just a few 
examples of how this program works.
    Members of the Joint Terrorism Task Force have productive 
liaison with the Arizona Department of Health Services and 
their bioterrorism lab. The ADHS and lab are essential in 
immediately addressing an overt biological threat and tracking 
hospital cases to identify spiking illnesses that may be an 
indication of a covert biological attack.
    Other JTTF liaisons relevant to the purposes of this 
hearing include the Metro Medical Response System, which 
receives Federal funding; the Arizona Office of Homeland 
Defense, which you have heard about earlier; and the Arizona 
Department of Emergency and Military Affairs.
    The Joint Terrorism Task Force has participated in numerous 
joint training exercises, which included these and many other 
agencies. These exercises involved simulated chemical, 
biological and nuclear threats. Some of the locations included 
Phoenix, Mesa, Lake Havasu City, Fort Huachuca and Sierra 
Vista, Sky Harbor Airport, and the Palo Verde Nuclear Power 
Plant.
    Since the events of September 11th, the FBI has worked 
closely with the law enforcement community to create two 
satellite Joint Terrorism Task Forces, one at Tucson and one at 
Flagstaff, and has attempted to increase membership in Phoenix 
by six additional State and local agency members.
    The FBI's National Infrastructure and Protection Center, or 
NIPC, created in 1998, serves as a focal point to warn against 
and respond to terrorist attacks that involve the use of the 
Nation's cyber network.
    The NIPC Key Asset initiative program identifies and 
attempts to protect against cyber attacks on major electrical, 
communications, water, and energy systems, as well as 
transportation hubs.
    The NIPC Infra-guard Program incorporates business, 
military, and government communities into a kind of cyber 
Neighborhood Watch network.
    The FBI has also developed a number of warning systems that 
are linked to the Arizona law enforcement and business 
communities. The National Threat Warning System is a 
classified, secure network that reaches 60 Federal agencies and 
their subcomponents, as well as all 56 FBI field offices and 44 
legal attaches overseas.
    This information can then be disseminated to local and 
State agency personnel with appropriate clearances. Thirty-
seven such warnings have been sent since September 11th.
    Unclassified threat information is nationally disseminated 
through the National Law Enforcement Telecommunications System 
[NLETS]. The FBI has issued over 40 ``be on the lookout,'' or 
BOLO, alerts on the NLET system since September 11th, and 
thousands of security managers at U.S. commercial firms receive 
threat information through the FBI's Awareness of National 
Security Issues and Responses [ANSIR] Program.
    The FBI's Weapons of Mass Destruction Program fully 
integrates the FBI into Arizona's local and State emergency 
first-responder, and law enforcement community. The Phoenix FBI 
Weapons of Mass Destruction Coordinator is Arizona's conduit to 
a myriad of national nuclear, biological, and chemical 
resources.
    Arizona's Weapons of Mass Destruction Coordinator works 
closely with the FBINQ and Counter Measures Unit and Hazardous 
Materials Response Unit to provide immediate expertise and 
links to subject experts in all related fields.
    The WMD Counter Measures Unit and HMRU also serve as a 
central resource point for Federal response teams in the event 
of an actual attack. They also have immediate liaison with 
agencies responsible for the administration of medical stores, 
portable medical facilities, and supporting material resources, 
such as tents, mobile labs, and storage buildings.
    The WMD Coordinator's position was created specifically by 
FBI Headquarters to insure that each FBI field office gave an 
immediate response to local and State resource needs in a WMD 
event.
    Due to time constraints, this concludes my prepared 
remarks. I would like to thank you for the opportunity to make 
this presentation, and I look forward to any questions.
    [The prepared statement of Mr. Churay follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Horn. Well, thank you very much. That is helpful.
    We now have Michael P. Austin, the director of the Arizona 
Division of Emergency Management.
    Mr. Austin.
    Mr. Austin. Thank you, Mr. Chairman, Congressman.
    It is a pleasure to be here today to offer some comments to 
the committee.
    Mr. Horn. Is that mic enough to hear you? Sorry to 
interrupt.
    The Reporter. The mics on the table will not amplify.
    Mr. Horn. OK.
    Mr. Austin. Mr. Chairman, I will try to speak louder.
    My name is Mike Austin, and I am the Director of Emergency 
Management for Arizona.
    Thank you for the opportunity to appear today to offer 
comments on your efforts to hear interoperability and 
efficiency issues for the country.
    Arizona, as you heard the Governor say, has begun preparing 
for terrorism since 1997. Our strategy has been modeled after a 
consensus process that was articulated well by Dr. Faulkner at 
Harvard. He wrote a book, ``America's Achilles Heel,'' several 
years ago and then presented the key issues of that book at a 
conference that was held and hosted by the Department of 
Justice in Williamsburg, Maryland, in 1997.
    The State of Arizona attended that conference and took away 
from that some key points of emphasis that we needed to develop 
our Terrorism Task Force after in Arizona.
    Governor Hull emphasized that the key points for our Task 
Force would be to build a statewide response capacity; 
construct a first-responder response preparedness curriculum; 
and develop a robust health alert network.
    Prior to September 11th, the Task Force was primarily 
focused on administering the Department of Justice grant and 
working with our Federal partners on integrating the State, 
Federal, and local response capacity along those lines.
    After September 11th, you heard the Governor mention that 
she elevated that effort to the cabinet level and appointed 
several of her key policy advisors to fostering the Task Force 
through its reinvention.
    The Governor's key points of emphasis since then have been 
the driving force for developing a statewide capacity. Her 
first key point of emphasis is to build a first-responder 
capacity that is incredibly robust. Arizona's response has been 
built on a pre-September 11th threat assessment. Obviously 
after September 11th, our threat assessment methodology changed 
dramatically.
    We immediately recognized that first-responders need to 
build a response capacity that clearly enhances public safety 
and does not supplant current capacity.
    The methodology that we are considering is focusing on a 
model that you heard referenced by the city of Phoenix Mayor, 
Mayor Skip Rimsza, based on the urban search and rescue model, 
building a response capacity within the State of Arizona that 
is equipment typed, resource typed, that can be functionally 
deployed to an incident that occurs anywhere in the State.
    The critical element of that is that mutual aid needs to be 
thoroughly developed and thoroughly integrated throughout all 
of the different levels of government within Arizona, including 
the Federal level. There are Federal assets that need to be 
incorporated into mutual aid as well.
    Clearly, not all local governments are going to be able to 
develop a capacity for weapons of mass destruction incidents. 
It is probably not strategically valid to have every 
jurisdiction in Arizona have the maximum response capacity for 
any kind of incident.
    The response capacity that they have should be measured 
against the threat that they have and also measured against the 
kind of assets that are readily deployable within their region.
    To that end though, interstate and intrastate capacity must 
be developed. Not so much of a problem in Arizona, but I 
recently went to a similar hearing in Texas where it was 
pointed out that the Phoenix urban search and rescue team is 
much closer to El Paso than the Dallas urban search and rescue 
team or even the city of Austin response capacity. So if El 
Paso was to have an incident, then Phoenix is the closest big 
responder that would be able to go.
    The key component to mutual aid, of course, is 
interoperability, and that is a tough problem to address. The 
mayor spoke of the 800 megahertz issue, and in all of the 
Federal dollars that Congress is appropriating to Federal 
agencies to provide money to local jurisdictions to enhance 
their communications capacity, that is not going to be enough. 
We are still going to be short money in order to develop 800 
megahertz capacity throughout the State of Arizona, especially 
in the West.
    The problem with 800 megahertz, it needs a robust repeater 
methodology in order to be able to have the interoperability 
that you would desire to have. The West, as you know, is much 
different than the East Coast where political subdivisions are 
small, and 800 megahertz carries easily across a county border. 
There are counties in Arizona that are much larger than Eastern 
States.
    In all of this, the Governor's role plays an important 
element. States play a key role. As you have heard, there are 
over 40 Federal agencies that offer weapons of mass destruction 
or terrorism assistance programs. It is essential that States 
be able to have funding in order to administer and to be able 
to provide the overhead integration capability so that all of 
these goals can be met.
    Providing money to first-responders is a great idea, and 
Arizona embraces that because we readily recognize that the 
first-responder capacity is essential to developing a statewide 
capacity.
    However, if all of that capacity is not integrated and a 
strategic investment is not made, then as Mr. Posner has 
pointed out, you will lose the effectiveness of all of the 
investment to some degree. So States play a vital role, and 
Congress needs to provide funding to States in order to 
accomplish that goal.
    The other issue that I want to bring forward today is the 
issue of outcome-based performance indicators for the 
accountability for that funding. That is a dynamic topic that 
needs to be thoroughly explored.
    Before strategic investment can take place, before funding 
can take place beyond a first-responder capacity, we need to be 
able to know what the outcome is. We kind of intuitively know 
what that is being better prepared. But realistically, what 
does that mean?
    And if we have 30 different funding streams or several 
different funding streams that have specific program indicators 
or outcome indicators, output indicators, if you will, for what 
that funding is being spent on, if DOJ has an accountability 
process and FEMA has an accountability process, then the 
administrative burden on the States would be excessive.
    We need to know, the Nation needs to have an outcome 
indicator or outcome based methodology that all of the Federal 
agencies will accept as a performance accountable measure for 
the funding that is coming through. The States can provide that 
methodology and can provide that reporting, but to have 
separate accountability outcomes for all of the different 
funding streams may be difficult to administer.
    So we do need to have outcome-based indicators, and they 
may be simple to arrive at. They may be outcome indicators that 
already exist: faster response times for first-responders, 
better water quality, things like that currently exist that we 
can report on.
    Mr. Chairman, thank you for the opportunity today. In the 
interest of time, I will end my comments.
    [The prepared statement of Mr. Austin follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Horn. Well, that is a very fine list that the Governor 
is implementing, and it is a good list that I am sure other 
States will try to follow.
    Our next presenter is David Englethaler, director, Arizona 
Department of Health Services and Response Office, emergency 
response coordinator for the Arizona Department of Health 
Services.
    Mr. Englethaler. Thank you, Mr. Chairman, Congressman 
Flake, members of the committee.
    Good afternoon. I am David Englethaler with the Arizona 
Department of Health Services. I am here to represent Dr. 
Catherine Eden, who is the director of the Department, who is 
sorry that she is not able to appear before this subcommittee.
    I act as the chief of the Department's Bioterrorism Office 
and as the emergency response coordinator for the Department.
    I am grateful to this subcommittee for the opportunity to 
speak here today. My hope is to give you the Department of 
Health Services' perspective on what we have been doing so far 
to prepare for a potential bioterrorism attack, as well as what 
we are currently working on.
    Prior to receiving the Centers for Disease Control 
bioterrorism funds, public health agencies at the State and 
county levels were not primary participants in bioterrorism 
discussions and really were not consulted within bioterrorism 
hoax responses, which has really been the primary response to 
bioterrorism prior to September 11th.
    The primary responders were often the law enforcement and 
HAZMAT agencies, which are not considered traditional public 
health partners.
    The Arizona Department of Health Services received a 
bioterrorism cooperative agreement from the Centers for Disease 
Control in the fall of 1999. These funds allowed the department 
to establish its epidemic detection and response program. This 
program was centered around four main activities, those being 
emergency response planning, bioterrorism and outbreak 
surveillance and investigation, biological agent detection, and 
communications.
    The CDC funding provided the Department the opportunity to 
simultaneously begin to develop bioterrorism response 
capabilities, as well as to bolster the existing infectious 
disease surveillance and response infrastructure.
    Over the ensuing 2 years, the department established itself 
as a main component in emergency response, particularly in the 
area of bioterrorism. Close partnerships were developed with 
emergency management and law enforcement and other first-
responders, and these relationships were tested and proven 
during the anthrax letter and hoax responses activities during 
last fall.
    Three Arizona cities were funded as part of the federally 
coordinated Metropolitan Medical Response System Program out of 
the Office of Emergency Preparedness. The Department has built 
close ties with these programs and remains involved with the 
development of their systems.
    The Department has also developed both intra and 
interdepartmental response plans for public health emergencies 
and produces statewide response plans for bioterrorism, 
pandemic influenza, and the national pharmaceutical stockpile, 
and has participated in various tabletop exercises.
    New disease and outbreak surveillance systems have either 
been developed on air in the process of development. The State 
Health Laboratory has increased its capacity to test for 
bioterrorism agents and has begun to provide Level A laboratory 
training.
    The Department has also increased the emergency health 
communications capacity in the State by providing county health 
departments and healthcare facilities with communications 
equipment, including satellite dishes and fax machines.
    The department has also begun development of an Internet 
based health alerting system that allows for secure high-speed 
communications between all emergency responders, and this 
system is being done in coordination with emergency management 
and law enforcement.
    All of these activities were made possible by the Centers 
for Disease Control bioterrorism cooperative agreement funds, 
and all were tested during September 11th and anthrax response 
activities. A review of response activities last fall has shown 
that the department was able to adequately respond to the 
public health needs of the State, although the Department's 
resources were taxed.
    The county health departments and the hospitals 
participated to some degree in emergency response actions, but 
they had not been previously able to develop strong 
bioterrorism response systems. It became obvious that an actual 
large scale bioterrorism attack would quickly overwhelm 
Arizona's, like most States', response capabilities.
    With the advent of the CDC bioterrorism cooperative 
agreement, supplemental funds and the HRSA hospital 
bioterrorism preparedness funds just recently this year, the 
State will be able to address the bioterrorism preparedness 
needs of the county health departments and begin to address the 
many needs of the hospitals in this State.
    Currently the Department of Health Services is vigorously 
developing work plans and applications for these grants. The 
Department is also making immediate funds available to all 
county health departments for each to hire a bioterrorism 
coordinator, as well as a communications coordinator to insure 
the development of local health emergency response plans and 
the integration of department directed health communications 
systems.
    The department has already met with the county health 
departments, and the bioterrorism and hospital advisory 
committees to provide input and direction on work plan 
development for both of these grants.
    The department believes that these funds will allow the 
State to go a long way to shoring up Arizona's public health 
infrastructure, while insuring the citizens of Arizona will be 
more adequately protected during catastrophic bioterrorism 
attack.
    An ongoing planning concern is the long-term maintenance of 
this increased public health infrastructure, particularly 
funding for new personnel. It is hoped that these current 
funding streams are, although immediate in nature, long-term in 
reality.
    I thank the subcommittee for your time and your kind 
invitation.
    [The prepared statement of Mr. Englethaler follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Horn. Well, thank you. That is helpful.
    I am going to take the privilege of one question and one 
question only, and then we can do it generally, but it comes to 
me, and I want it with this part of the record.
    You have got fine laboratories in the Public Health 
Department. Do you have a capacity of the nonprofits and the 
profits, the universities to do some of this laboratory work of 
let's say you had some kind of a plague and biological thing? 
Have you thought about getting those all connected in some way?
    Mr. Englethaler. Mr. Chairman, Congressman Flake, 
essentially those labs that you all listed are considered Level 
A labs, and those are labs that typically test for various 
types of disease agents that humans may get. They are all 
receiving training through our department to be able to do a 
certain level of testing for the various bioterrorism agents, 
at least some rule out testing, information on how to handle 
this material, how to send it to the State lab.
    The State lab is part of the overall laboratory response 
network in the country and is coordinating all existing testing 
during a bioterrorism event or hoax type situation. So we are 
working with those partners and providing education and 
training, too.
    Mr. Horn. Thank you.
    And now our last speaker for Panel 1 is Lieutenant Colonel 
Norman Beasley, the Assistant Director for Criminal 
Investigations of the Arizona Department of Public Safety.
    Colonel Beasley.
    Lt. Col. Beasley. Mr. Chairman, Congressman Flake, it is, 
as the rest of the panel has said, a pleasure to be here and to 
have the opportunity to testify on this truly probably the most 
vital topic that we are facing today in our society.
    What I would like to do real briefly, and I assure you real 
briefly, is talk a little bit about what the Department of 
Public Safety and other law enforcement offices are doing in 
Arizona, and then talk specifically about some homeland defense 
recommendations as it relates to the law enforcement function.
    The Department of Public Safety is designated under our 
emergency response plan as the lead State agency for terrorism. 
What this means is that we are responsible for coordinating all 
State assets that would be deployed to assist other State and 
local agencies during an act of terrorism.
    To accomplish this mission, as of September 11th, we have 
instituted our Domestic Preparedness Command. As part of that, 
we have opened a Domestic Preparedness Operations Center that 
until recently was staffed 24 hours a day, 7 days a week by not 
only DPS investigative personnel, but personnel from other 
local law enforcement agencies.
    What this center handles is all requests for DPS 
assistance, information, and support, and any other State 
agencies' support, to include the Department of Health 
Services; is routed to this center, and then it gives us a 
point of central coordination.
    We also, during the anthrax scare, we took over the 
responsibility from the FBI to track all of our suspicious 
anthrax letters. If a local jurisdiction does not have the 
responses to respond to deal with a suspicious package, we will 
either have other local agencies respond or our own specialized 
response units will respond in conjunction with the FBI to deal 
with that particular package and then transport it to the 
Division of Health Services.
    We also coordinate the deployment of the National Guard 
Civil Support Team, which has been a very good asset for us, 
and is the National Guard's version of a weapon of mass 
destruction response team.
    The center also developed a secure Web site that provides 
real time intelligence, research and open source information to 
all law enforcement agencies, not only within Arizona, but 
throughout the country.
    It does provide written ready access to even Federal 
generated information. We have partnered with the FBI, and all 
of their teletype and information bulletins are placed on this 
Web site in a real time basis so that agencies in Arizona can 
go to this Web site and get the most current information that's 
available.
    In addition, our Intelligence Bureau generates daily threat 
advisories for all law enforcement agencies in Arizona. To 
date, we have generated well over 250 intelligence bulletins. 
We have forwarded 187 NLETS terrorist related teletypes to all 
law enforcement, and basically this becomes a check and 
balance.
    What we found initially is not every law enforcement agency 
was receiving the NLETS. So we have taken that responsibility 
to make sure that every agency gets this information.
    If they do not have NLETS capability, we use e-mail or the 
fax.
    Since September 11th, as a department we have been in a 
higher state of alert, and all of our specialized response 
units that would respond to a weapon of mass destruction or act 
of terrorism are on immediate mobilization status.
    Detectives and support personnel assigned to the division 
have been redeployed to conduct counterterrorist investigations 
in the area of intelligence and security operations. We work 
very closely on the FBI's Joint Terrorism Task Force and the 
U.S. Attorney's Anti-terrorism Task Force. We have also 
assisted the city of Phoenix with security at Sky Harbor 
Airport.
    In the area of personal protection equipment, we have been 
very fortunate. We are in the process of finishing up the 
purchase of a personal protective ensemble for every sworn 
officer, almost 1,100, that will give every officer in the 
field protection so that they could perform law enforcement 
functions within a chemical and biological environment.
    At the request of the U.S. Attorney's Office, we have 
partnered with the FBI in their expanded U.S. Attorney Task 
Force and FBI Joint Terrorism Task Force to provide liaisons in 
those areas of the State where there is not an FBI agent.
    Throughout our history, Arizona has enjoyed a very strong 
working relationship prior to September 11th, and this has been 
a building block not only with law enforcement, but with other 
public safety respond agencies. A lot of credit goes to the men 
and women out there in the field in Arizona who work daily on 
very hazardous things and work very well. We feel Arizona 
really is a model when you look at interagency cooperation.
    I want to publicly compliment the role of the U.S. Attorney 
and the FBI in providing that support to us.
    Now I wish to talk specifically on some homeland defense 
issues, some of which Mr. Posner touched on.
    In the area of intelligence sharing, there needs to be a 
mechanism in place to allow for the timely sharing of 
intelligence information between State, local, and Federal 
agencies. Currently there does not seem to be a clear vision on 
how this is going to be accomplished.
    The International Association of Chiefs of Police has a Web 
site on the FBI Law Enforcement Online. The U.S. Department of 
Justice RISS projects are attempting to use RISSNET as an 
interoperability between agencies.
    The problem with both of these systems is not everybody is 
on them.
    The FBI uses the NLETS system to disseminate information. 
Again, as we talked, not all law enforcement agencies have 
this.
    In addition to the vision on how are you going to get this 
information from the Federal level to the State level, there 
needs to be also a vision on specific tasking to State and 
local agencies. What does the Federal Government expect from us 
in the way of information, and a mechanism where those State 
and local investigative operations can input that data directly 
and receive information back.
    This vision should also look at developing and supporting 
systems, including software and hardware, that enhance the 
overall intelligence effort and makes this a true national 
intelligence program.
    It appears that the State law enforcement agencies can play 
a vital role, and I think Congress needs to look at funding for 
the State level law enforcement agency in the area of this 
intelligence dissemination system.
    The development of interoperable communications systems is 
a huge issue for first-responders, and that has to be a 
critical thing for Congress to look at. We had experience 
during the World Services. The military does have that 
capability to link various radio frequencies, and if this 
system could be made available to State and local agencies, as 
long as it was not cost prohibitive, that might be something to 
look at.
    In the area of training, much of the WMD training that we 
see today is not law enforcement specific. We would like to see 
that the training programs develop some form of law enforcement 
specific training that is geared to what the law enforcement 
officer is going to do in a WMD or a terrorist environment. 
That is primarily for the field officers.
    In closing, I really wish to thank Congress for their 
support in the Nunn-Luger initiatives and other initiatives 
because, quite frankly, without your support, Arizona could not 
be at the level of preparedness that we currently are.
    Thank you.
    [The prepared statement of Lt. Col. Beasley follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Horn. Well, I thank you for your fine presentation.
    I want to just answer one thing that I think is what you 
were talking about. We were very conscious of sharing law 
enforcement information with the FBI and other intelligence 
agencies to pinpoint a person in the city or the county or the 
State that would be cleared by the FBI so that you did not have 
a dope by mistake that was putting away marijuana or something 
and taking it out the cage himself.
    So I would just like to put this in the record because it 
is definitely with what you are talking about, which is the 
H.R. 3483, the Intergovernmental Law Enforcement Information 
Sharing Act of 2001.
    This is a letter signed by myself and Christopher Shays, 
the chairman of the Subcommittee on National Security, Veterans 
Affairs and International Relations, and I gave this to the 
chairman of Judiciary and the James Sensenbrenner, Jr. He is 
very responsive to this, and we hope we can move that 
legislation in the next couple of months. And we know that is 
long overdue.
    So you hit a right thing, and I hope that the delegation 
all over the country agree with that, and I think they do.
    So that is very helpful now on Panel 1, and then we will 
move into Panel 2, and with the General Accounting Office 
usually we have the individual from the GAO we will at the end 
ask if we have missed something. That is where we are trying to 
get to between people.
    The Panel 2 is Robert Spencer, Jack Harris, Steve Storment, 
Tom Gallier, and Roy Stewart.
    OK. We do swear in our witnesses. So if you will stand and 
raise your right hand, we would appreciate it.
    [Witnesses sworn.]
    Mr. Horn. The Clerk will note that all five witnesses have 
affirmed.
    We will begin with Robert Spencer, the Director of Maricopa 
County Department of Emergency Management.

   STATEMENTS OF ROBERT SPENCER, DIRECTOR OF MARICOPA COUNTY 
  DEPARTMENT OF EMERGENCY MANAGEMENT; JACK HARRIS, ASSISTANT 
  CHIEF, PHOENIX POLICE DEPARTMENT; STEVE STORMENT, ASSISTANT 
 CHIEF, PHOENIX FIRE DEPARTMENT; TOM GALLIER, GENERAL MANAGER, 
  WATER UTILITIES DEPARTMENT, CITY OF TEMPE; AND ROY STEWART, 
          PRESIDENT, STEWART ELECTRIC & COMMUNICATIONS

    Mr. Spencer. Chairman Horn, Congressman Flake, members of 
the committee, thank you for this opportunity to present some 
local views on how the Federal Government's efforts are working 
for the response to terrorism and for searching for 
recommendations to make those efforts more efficient. My 
comments today will hopefully represent the local regional 
perspective.
    Some of the demographics of Maricopa County are included in 
the written statement that I have submitted today. I will not 
go into those too much right now.
    Mr. Horn. I might say all of your statements automatically 
go into the record when I call your name.
    Mr. Spencer. OK.
    Mr. Horn. We hope we can get these hearing records out in 
the next few months because otherwise we are losing problems 
and not taking your knowledge and spreading that around the 
country.
    So go ahead.
    Mr. Spencer. Included in that statement are many of the 
terrorism response capabilities that we have. Today I am 
speaking from the Maricopa County perspective, but it is also a 
partnership of 24 cities and towns and another 30 city-like, 
unincorporated population centers. So it is not just Maricopa 
County because we do work closely together with the cities and 
towns.
    In my short period of time here today for verbal testimony, 
I would like to convey shortfalls that we have in the system 
and some recommendations maybe on how to fix some of those 
shortfalls.
    The current money allocated by the U.S. Department of 
Justice has begun to put a dent in the overall needs for 
equipment. This money flow needs to continue.
    Restrictions on this money, however, need to be relaxed. We 
cannot purchase such items as bomb robots and rolling stock 
with this money. So even though we are buying a lot of response 
equipment, we are getting close to the dilemma as to how we 
will store it and quickly get it to the scene. Trucks and 
trailers must be purchased for such.
    Perhaps too much emphasis is sometimes placed on these 
funds for chemical and biological response, where maybe the 
most likely attack will be conventional explosives perhaps 
enhanced with nuclear materials.
    Therefore, equipment to interrupt or disarm bombs and 
equipment to rescue people in collapsed structures needs to be 
considered.
    When considering this and certain other sources of Federal 
funding for the local emergency response, the bureaucracy needs 
to lighten-up on some of the grant restrictions. Requiring 
local match can be difficult when dealing with funds at these 
levels. We cannot spend the money if we are required to match 
it, and we cannot come up with the qualified matches.
    Another shortcoming is that when moneys at these levels 
come into a smaller agency, such as mine, it can be very 
difficult to spend it within strict timeframes and without 
additional personnel to manage the funds. We want to get this 
money on the street as quickly as possible, but we also want to 
manage it professionally.
    Future money should allow for the hiring of a limited 
number of employees to keep track of the funds and to get those 
funds spent expeditiously.
    Now, the hospital system has come into this game late and 
is not yet able to provide the level of capability that we 
need. Even during normal times, our EMS and hospital system in 
the valley becomes saturated. If the large mass casualty 
incident was to occur during the 8 months out of the year when 
our population is at its highest, when our snowbird population 
has come down for their annual migration, we might be fortunate 
to find three critical care beds per hospital.
    May I suggest something maybe that may help nationwide to 
remedy the need for more critical care bed space? This may be 
maybe my highest recommendation today, for improving the 
hospital surge capacity preparedness, and that would be for the 
Federal Government to develop 12 nationally committed field 
hospitals which could be expeditiously shipped anywhere in the 
Nation within a 12 hour maximum timeframe.
    If you research some of the old civil defense things, we 
used to have those, and during the early 1980's they were 
dismantled, sent to South America, and so forth, and we no 
longer have that capacity.
    There has already been developed a similar capability in 
the national pharmaceutical PUSH package, and to a lesser 
degree the national DMORT system. The hospitals would be self-
contained, would provide shelter, climate control, bed space, 
and medical equipment to handle up to 1,000 critical care 
patients.
    A trained group of professionals would accompany the 
hospitals during a deployment, to set them up and to provide 
additional medic support to the local effort.
    The mobile hospitals would go a long way in solving the 
surge capacity required in every locality in our Nation.
    The next shortfall that currently is being addressed, but 
needs to be expanded and implemented nationwide is the uniform 
medical surveillance system, and David Englethaler addressed 
that pretty well.
    But if a biological attack was to occur, we all know that 
recognizing the event early on is crucial preventing its 
spread. Funding to install the system in every hospital and in 
every emergency medical system is of paramount importance.
    The ability to quickly warn and advise the public is 
lacking. The old civil defense sirens are gone. The emergency 
alert system has replaced the earlier and older emergency 
broadcast system, somewhat debatable as to whether or not that 
was an improvement.
    Locally we have something called the media alert, which 
will blast fax the media with emergency information. The media 
alert was developed to supplement the EAS.
    We currently have funding also to develop a county-wide 
telephone calling system to provide emergency information to 
the populous.
    With all of these projects considered, I am still not 
comfortable that we have what we need in the way of warning and 
notification. The Federal Government has been working on 
legislation that requires a special electronic chip to be 
installed in all new radios and televisions. The chip would 
automatically turn on a device in which it was installed and 
tune it to receive emergency messages from the EAS.
    This would fill a huge gap, and it would be found where 
someone who is not in contact with a telephone or did not have 
their radio or TV turned on. The Federal Government should 
continue to look at this legislation and expedite it if it 
really does seem right.
    The final shortfall that can be predicted is the ability 
for the local emergency response agencies to sustain their 
terrorism emergency response capabilities. Most response 
equipment has a 5-year shelf-life. Of course, if it actually 
has to be used, it is immediately outdated.
    Phoenix, which is our original Nunn-Luger-Dominici Act city 
that was trained under those funds, has noted that their 
originally purchased equipment is going to start getting 
outdated. It has been that long.
    Although they have spent much of their own local money to 
sustain and build their capabilities, they cannot do so 
indefinitely. The Federal Government needs to come up with a 
plan and funding streams to provide the sustainability required 
in the future.
    Thank you, once again, for requesting our local input. I 
hope my recommendations can help you plan future legislation 
that will make local response to terroristic acts more 
effective and more efficient.
    [The prepared statement of Mr. Spencer follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Horn. Well, that's excellent, and your point on the 
hospitals and the need for tents and all of the rest of it, 
like MASH, maybe we can get some of it off the MASH set in 
Hollywood and solve some of these problems.
    But I will ask our staff to go now and get a real look of 
where are the various tents and all that could be moved rapidly 
across the country. So thank you for pointing that out.
    Jack Harris is the Assistant Chief of the Phoenix Police 
Department.
    Thank you for being here.
    Mr. Harris. Thank you for the opportunity to speak before 
this committee.
    It is nice going in the second group because I get to just 
review some of the main points that I wanted to present because 
most of them have been presented by other members from the 
other group. But let me say that one of the important points 
that we wanted to bring forth from the local jurisdiction is 
the topic of resource allocation and threat assessment.
    In the earliest stages of the development of the WMD 
program back in 1996, the initial grant funds that were going 
to be offered to the jurisdictions were disseminated based 
primarily on the 27 largest jurisdictions throughout the United 
States. That short list of 27 jurisdictions included the city 
of Phoenix.
    As time went on, the funding was presented at the State or 
the country level for disbursement, and the funds to not always 
get disbursed to the areas where the risk is the highest or 
where the population is the greatest. We would recommend that a 
review be made and go back to the original allocation alignment 
of looking at the jurisdictions that had the highest risk 
assessment according to the Department of Justice study and 
also where the largest masses of population were concentrated.
    The second area that I would like to talk about which has 
been discussed already is the policy for sustainment of funds. 
We get funds which we really appreciate to start program and to 
purchase equipment for programs that are essential to our 
response to a WMD situation, but we desperately need to be able 
to continue that funding to sustain that equipment and those 
programs beyond just the initial allotment to get the 
equipment.
    One example would be the purchase of, say, 2,700 gas masks 
to equip everyone with the Phoenix Police Department. That is 
extremely beneficial to us, and we appreciate that kind of 
funding.
    But along with that allotment comes training needs and OSHA 
standards that have to be met to continue to operate with that 
equipment. OSHA standards will require physical examinations, 
respiratory examinations for people who are disbursed with this 
equipment and also training in how to properly utilize the 
equipment.
    That funding can be very detrimental to a local agency, 
especially in these hard times economically. So we would, as 
some of the other members have, emphasize and reiterate that we 
need sustainment funds to keep those programs and equipment 
going into the future.
    The other topic that I wanted to discuss was the 
communications situation with the 700 megahertz bands. The city 
of Phoenix strongly urges continued review by the FCC and the 
congressional committee for appropriate distribution and 
organization of frequencies allocated for public safety uses. 
As I am sure you are well aware, in any type of major response 
to something like Oklahoma City, one of the first things that 
can cause problems for first-responders is the lack of 
communications.
    So we are asking that we continue to look at how those 
frequencies are allotted to both public entities and private 
entities, as well as to public safety organizations so that 
when we get to a scene, as the Twin Towers disaster, that we 
are able to continue to communicate without overlap or the 
frequencies and a problem with private industry frequencies not 
be available to us to be able to maintain the communications 
that are so necessary in a mass disaster like that.
    And with that, I would thank you for allowing me to present 
today and appreciate any consideration that you give to our 
requests.
    [The prepared statement of Mr. Harris follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Horn. We now have your counterpart in the Phoenix Fire 
Department, Assistant Chief Steve Storment.
    And welcome being here.
    Mr. Storment. Thank you, Congressman Flake and Mr. 
Chairman, for the opportunity to actually followup from what 
Mr. Spencer and Jack said as far as sustainability.
    We go back to 1997 being one of the first two dozen MMRSes 
that were put together to start looking at this issue, and as 
Mr. Spencer said, as we have gone along with this, we have made 
the equipment go as far as we can. We are now almost 6 years 
into that program, and using the FEMA USAR model that the mayor 
spoke about so well and the video, we have been a decade, and 
that has been my responsibility over the last actually 12 
years, is that direct funding source to the local jurisdictions 
that provide the direct service to the customer.
    In the gap between our 22 points out of 22 points that we 
scored during the assessment in this last round of money, we 
got all of the points there were for the hazards and the risks 
associated. One of our gap problems is the FEMA USAR assets, 
some 60,000 pounds and some up to 100 people that you have got 
to move on best speed is a 6-hour window and up to 2 to 3 days 
to get wherever you are going.
    Those same folks, if it happens here, are tied up in the 
emergency response. One of the pieces for sustaining our effort 
here is daily operational sustainment that takes 6 to 8 
minutes, not 6 to 8 hours. For us that would be a piece of 
equipment and staffing called heavy rescues that New York City 
had and other cities currently have that allows you to kind of 
bridge that gap between getting the rest of the stuff here and 
the rest of the Federal effort here that helps not only law 
enforcement, but also helps the fire department and certainly 
the customers in Phoenix.
    The other part of this sustainment effort is the track 
record. In fact, Mr. Posner said it very well, is the success 
stories. In the last 10 years, last 12 years of the FEMA USAR 
program, we have survived an IG audit, and that was quite 
interesting and we got through that.
    So those auditing pieces for the local jurisdiction are in 
place, and they work. We would like to see that directed to the 
city locale that have a proven track record to continue. With 
the efforts between the police department and the fire 
department and MMRS, we have been ranked at least by CNN in one 
article being the fifth best prepared in the Nation.
    What held us back was what Mr. Spencer talked about, was 
the hospital piece, which is enormously difficult and at least 
in what you read in some of the congressional notes and in the 
newspaper, the Health and Human Services piece with a block of 
money coming through to them would certainly be helpful.
    We would like to submit that our effort over the last 
number of years has been well measured. We know what the work 
is. Hence we know what the job needs to be done, and we know 
what the outcome is.
    We have deployed to five different locations. We have seen 
it from the ground up.
    On the frequency piece that Jack talked about, we would 
like to add another piece that is not quite so special to 
become routine, and that is use of satellite communication that 
is not impervious, but certainly more hardened than ground-
lines and cell phone towers.
    And having been one of the first ones to Oklahoma, I can 
tell you it was a little unnerving to call to the National 
Response Center via pay phone in the Bell South building 
because there were no other lines available. So some interest 
in that to make it less special and more user friendly.
    I want to thank you for the opportunity to pass this along, 
and as part of the record, we made copies of a group that I got 
to work with back in Boston at the Kennedy School of 
Government, which I have had the privilege of sitting on their 
Executive Board for weapons of mass destruction issues, and 
there is a paper, which I am sure you guys have it, called 
``Winning Plays, Essential Guidance from the Terrorism Line of 
Scrimmage,'' which is kind of a long way of saying, you know, 
we know what the issues are and we have offered some solutions 
to those issues, and those are kind of the solutions we share 
with you today.
    Thank you.
    Mr. Horn. Well, we would certainly want to have that 
document in the hearing record. If you could just read in the 
matter and give it to the court reporter, and we will have it 
in.
    Mr. Storment. The name of the paper that some 12 of us had 
put together as part of this charge over the last 3 years is 
coming out of September 11th, and it was actually done for a 
really good friend of ours who passed away in that, Jack Finney 
of the New York City Fire Department, and it is called 
``Winning Plays, Essential Guidance from the Terrorism Line of 
Scrimmage,'' which basically represents the folks in the 
trenches, which are all of us.
    Mr. Horn. Sure.
    Mr. Storment. And the contributing authors were Peter 
Bearing, Paul Matascowsco, Hank Christian, myself, A.D. 
Vickery, and then the staff at the school there.
    And we have 100 copies back there, and I certainly have a 
copy here for the record.
    [The information referred to follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Horn. Well, thank you.
    I am a graduate of the Kennedy school, too, so I am 
interested in what they are doing. I am glad to see there is 
practicality and not just theory. So thank you for changing my 
view of my alma mater. [Laughter.]
    So we now have Tom Gallier, the General Manager, Water 
Utilities Department, city of Tempe.
    Thank you.
    Mr. Gallier. Thank you, Mr. Chairman and Congressman Flake. 
I appreciate the opportunity to speak to your subcommittee 
today.
    As I am sitting here listening to all of the previous 
speakers, I realize what we have been hearing from are our 
protectors and our rescuers in the event of a terrorist attack. 
I guess I am here to be the target, to represent the target 
community.
    Mr. Horn. You are right. You are right. We have not had a 
lot of testimony on the water resource situation.
    Mr. Gallier. It is a significant issue, albeit quiet one, 
in the background, and we appreciate that.
    I think an example of the whole thing in a nutshell is all 
of us have bottles of what we call ``Tempe tap'' here at our 
places, and I think all of us drink this water without a 
moment's hesitation or thought about its safety. And our goal 
essentially in the water industry is to make sure that 
continues to be the case.
    With the help of the good folks up here and with our 
representatives in Congress and other legislators and councils, 
hopefully we can continue that.
    I wanted to just briefly summarize the written comments 
that I have already submitted. It is important to remember that 
in the water industry, this issue did not begin for us on 
September 11th. By Presidential directive in 1996, as you are 
aware, there was an intergovernmental cooperative effort begun 
by Executive Order 13010.
    That was expanded in 1998 with the creation of the National 
Infrastructure Protection Center. Eight key critical sectors 
were identified in the country, water supply being one of those 
key sectors, and we have been working every since to try to 
develop programs that will allow us to protect our water 
systems around the country, not just in any particular area.
    One of the key elements of that is gradually coming to 
fruition now is a joint effort between the U.S. Environmental 
Protection Agency and one of our professional associations, the 
Association of Metropolitan Water Agencies. They have 
coordinated very closely with the FBI, with the Department of 
Energy's Sandia Labs especially, CDC, and many other Federal 
agencies to help fine tune our planning and preparation for 
potential terrorist acts.
    As you have mentioned, Mr. Chairman, at the beginning of 
the session, it is not a groundless concern, especially with 
what just happened a few weeks ago. Those of us in the water 
industry are very aware of that and very concerned.
    Some of the key points I would like to make is that as EPA 
and our own association are working together, one of their key 
outcomes they are working on is a system called the Water 
Information Sharing and Analysis Center, or Water ISAC. Similar 
to some of the agency communication systems that you have heard 
spoken about earlier, but with a focus on water.
    That is a very important piece of communication technology 
that we need to be in place as soon as possible. Those agencies 
are working very closely on it. There are a few issues that 
still need to be ironed out, not the least of which, as was 
mentioned earlier. We have the same issue, and that is 
obtaining security clearances at the proper level for the 
proper people in our associations so that they can get the 
information from the FBI and other national security agencies 
as soon as possible and then adequately get that information 
out to the rest of us.
    There are some financing questions that need to be 
addressed as well. There has been funding provided to create 
this system. We are now struggling to figure out how to pay for 
it for ongoing O&M, as was mentioned here.
    We may do that by subscription, essentially charging all of 
us in the industry a certain amount to support that, and if 
that is what it takes, then we will certainly do that.
    Definitely more research and development is needed on the 
full range of water system security threats that we face now. 
EPA's ongoing efforts have been helpful. They have allocated or 
potentially allocated $15 million this year in their proposed 
budget or next year's budget. That is a good start. We would 
like to see that continue and even be increased.
    There are efforts by a number of Federal research agencies 
and the American Water Works Association Research Foundation 
that are using some of the funds from the past and will be 
using those that are available this year.
    I am participating on a Professional Advisory Oversight 
Committee for an international study that is looking at one 
aspect of that right now with representatives of Portland, 
Oregon water authority and also the city of New York.
    So we are not just looking nationally at this issue, but 
outside of our boundaries as well.
    Governor Whitman's announcement last Tuesday that EPA is 
releasing $90 million in emergency grant funds directly to 
water systems to help pay for vulnerability assessments is 
greatly appreciated. I was notified by phone last week by EPA 
Region IX in San Francisco, and I appreciate the direct 
contact.
    As was mentioned here, I appreciate the fact that funding 
is coming directly to us. We do not have to go through three or 
four layers of bureaucracy.
    We appreciate the efforts that EPA is also making with 
Sandia Labs. DOE's research arm at Sandia is doing tremendous 
work for the water industry. They are beginning to plan now 
some train the trainer sessions, which a number of 
professionals in the industry can then use to come back and 
disseminate that knowledge very rapidly.
    Those sessions will begin next month. Already the city of 
Phoenix and the city of Tempe have volunteered in this area to 
provide space for that training process to occur when that is 
complete.
    Our city's planning efforts are coordinated, of course, by 
our fire and police departments, as Phoenix's are. We work 
closely with county, State, and Federal emergency planning and 
response personnel. We have had a number of emergency drills, 
just like most cities. Our latest one was last October, I 
believe, and that scenario was based on a biological or 
chemical terrorist attack at a sporting event, which we have 
some experience with sporting events in Tempe.
    Individually, our facilities are upgrading our electronic 
and physical security systems. We are reassigning staff to 
security planning and patrol duties. The leader in the valley, 
without question, has been the city of Phoenix Water Services 
Department. I believe they deserve special recognition for 
their efforts in this area.
    We are also, like everyone else, revisiting all of the 
design, construction and operating standards, plans, and 
assumptions because we realize now that this is not a short-
term issue. It is long-term. We have to rethink the way that we 
not only deliver our water services to our customers, but also 
how we bring the water into our facilities, how we treat the 
water, and then how we distribute it and store it.
    The ultimate question that we face in the water industry is 
what is the appropriate level of security that is needed. How 
much of our limited financial resources should we be prepared 
to expend on security when we as an industry also face 
significant costs to meet other, ever more stringent State and 
Federal water quality requirements?
    As an example, in Tempe's case, the new arsenic standards 
that were recently issued have very little effect on us. Our 
surface water supplies were blessed to have supplies that are 
very low naturally in arsenic.
    Many of the cities around us, however, rely on 
substantially more groundwater than we do that does have high 
arsenic levels. There is at least one city in the valley that I 
know of that is facing at least $60 million in capital 
construction to be able to meet those standards.
    I am not saying that to question the validity or the 
necessity of those standards. I think that is important for 
public health, but it is important to remember that the water 
industry is facing challenges on several fronts at the same 
time.
    So, of course, like everyone else, we are asking for more 
money. That usually comes through the form of the State 
revolving loan fund program, and again, to echo what Mayor 
Rimsza said earlier, and so did my counterparts here in local 
government, frequently portions of those funds when they are 
available have set-asides for rural areas where the level of 
income is much lower and the need is great.
    We need to look at security issues from a different 
perspective. The targets primarily for terrorist activity are 
going to be the larger urban areas. I would only ask that you 
remember it is not just one particular city in an urban area. 
Phoenix is like other major urban areas around the country, and 
within this area, we have eight cities with populations greater 
than 100,000.
    So we would suggest that be looked at as a metropolitan 
area basis, and that a set-aside in the Federal SRF be made of 
about 15 percent, if possible, for metropolitan areas around 
the country
so that we have a quicker access to that money that we can use 
for security improvements and other things that we will need.
    With that, I will end my statement and be happy to answer 
any questions.
    Thank you.
    [The prepared statement of Mr. Gallier follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Horn. Well, thank you very much. That is helpful, and 
we will get back to it in the question period.
    I have asked Representative Flake to introduce our last 
presenter.
    Mr. Flake. Well, thank you, Congressman Horn and Mr. 
Chairman.
    I wanted to introduce Mr. Stewart. I have been familiar 
with him and his company recently. Just to put it bluntly, I 
have been very impressed with what they have done.
    Right after September 11th, Mr. Stewart got a call saying 
things were needed in New York, particularly to restore 
cellular phone service there, and within hours he put together 
a team of eight men and drove, I think it took 49 hours or so.
    Mr. Stewart. About 48 hours, yes.
    Mr. Flake. And with two trucks and all of the equipment, 
eight men, driving across the country, arrived, and it was 
fairly chaotic, as I understand, for quite a while there, but 
within 4 days working nonstop, they were able to restore 
cellular service there by putting up some microwave facilities, 
and I just want to commend him publicly for that and his 
company for what he did, and I look forward to his testimony.
    Mr. Stewart. Thank you, Congressman. Thank you, Chairman.
    I guess probably what I will do is probably create more 
questions than I have answers or needs from the private sector. 
We have listened all day to these fine organizations that are 
established, and they do a fantastic job. We have watched them 
in New York City on September 11th when we were back there.
    Like the Congressman said, we got a call and asked us to go 
back to New York and deliver some equipment back there and see 
if we could not aid them in bringing a cellular system back up 
for one of our carriers that we worked for here in the valley.
    No information other than just what we could get off the 
media, over telephones as we were traveling. We put a team 
together pretty rapidly. What do we need when we get back 
there, like our urban response teams, so organized and have 
everything ready to go to deal with the actual scene itself?
    But when they break it, we have got to go fix it, and as we 
talked today, everybody is very concerned with this 800 
megahertz, which we are working on that presently right now. 
Communications play such a vital role to America. A question to 
you is: What would have happened in Manhattan if Wall Street 
would have opened up the next morning business as usual? The 
reason why they could not, they could not communicate with the 
world.
    Our business today communicates globally. It is a very, 
very vital role in emergency tasks, in our business, in our 
commerce today around the world.
    It is a very complex system, and 99 percent of it is 
operated and owned by publicly held companies, and privately 
held companies like myself that design it and build it and 
maintain it for these companies with all of the large ones.
    But like Congressman Flake said, we got a call, and we 
headed for New York. We had never been asked to do this before. 
We never responded to a disaster. So we got back to New Jersey. 
There we found out there was no land-line base available, and 
what their cell system operated on was a hard-line system. 
Copper wire was the way they hauled their cell sites around.
    Out here in the West we hurl microwave shots around here 
because we're so sprawled across the State that we do not have 
copper; we do not have hard-lines. So we use microwave. 
Everywhere you look there is a microwave dish hauling our 
systems around the country.
    So when we got back there, all of the copper lines had been 
destroyed in the neighborhood of literally millions when the 
World Trade Center went down.
    So we went into their command center for the customer that 
we were working for, and it was somewhat chaotic, but this had 
never happened in America before. So, yes, it kind of 
devastated everybody.
    We went to work the first day, went into the city; finally 
got into the city. Access was an absolute nightmare. Here was a 
bunch of guys from Arizona. Who are these folks? What are they 
going to do with the microwave specialists?
    Well, we did have enough thought that we said, OK, let's 
take everything but the kitchen sink when we leave. We took all 
of our spectrum analyzers, all of our equipment to sweep cell 
sites, to install, all of the materials that we could haul in 
our service trucks that we pulled the equipment back to New 
York with.
    Sitting in the war room, we finally started calling it, we 
had a map of Manhattan, and we had an entire system that was 
completely dead. There was some movement being made in it, some 
additional switching facilities that had been hauled into the 
area and were being tapped onto the switch, but nothing could 
be brought back up because the local phone company was trying 
to bring copper back up.
    Well, copper was not coming up, and there is a great deal 
of it that will not be up for several more months.
    So then we sat down, and we sat actually on a chalkboard in 
general conversation. How are we going to put this system back 
together?
    That is when we came up with, well, we do not know your 
system, but you have got cell sites here and here and here. Do 
you have access into these buildings? We can put you a 
microwave shop. We can haul it back through what we call a 
backbone system, a trunking system, fire these cell sites up to 
these various building tops and carry it out of the city that 
way and get you to a switching facility.
    Sure, that will be fine.
    So we went out to try to accomplish that task, and we ran 
into building owners that asked why we were there, what we were 
going to do, who was going to insure this installation while we 
are there, what is it going to look like on our building, is it 
really necessary, where are your credentials at, problem after 
problem after problem.
    It got to the point where we were afraid to leave what we 
had called the soft-line with our trucks and our equipment 
because we were afraid we would not get back in. Sometimes they 
would let us in; sometimes they wouldn't. We'd have to go 
around to another. Obstacle after obstacle that we ran into, 
with government agencies sitting there doing their job, but not 
allowing us to move freely through the city.
    A job that should have taken probably 1\1/2\ to 2 days is 
what we would have done here in the Phoenix metropolitan area 
with our highrises. It wound up taking us about 4 days.
    We commandeered a broken grocery cart, a hand-truck we 
found behind a building, and that is the way we moved around 
through the city, like a bunch of thieves actually.
    So I guess in closing, like I said, my story is probably 
going to have more questions and more problems because this is 
the first time we have been involved in this.
    What do we need to do to organize this? We have just a 
multitude of talent across the United States that is going to 
have to respond to these needs. When Phoenix goes down, they 
are going to have to call us because we built it. We will play 
a large role in the 800 megahertz for Phoenix fire and police 
and civil defense here in Phoenix.
    What are we going to do to organize that so that we know 
where our resources are? We know where the fire department is. 
We know where HAZMAT is at. We know where the Phoenix Police 
Department is. We know where DPS and all of these agencies are. 
But who knows where our talent is to bring this stuff back up 
when it is actually needed?
    Who knows where Roy is at? And his staff are absolutely the 
best of the best when it comes to microwave people. Who knows 
where they are and do we need them?
    So I will close this on the last and try to wrap this thing 
up, but I do appreciate you guys giving us the opportunity to 
come and bring some of the problems that the private sector had 
in New York City and probably some that may occur again, but 
maybe with the help of this committee right here and these 
hearings, we might be able to start reaching out and saying, 
``Hey, maybe we do have a problem here. Let's organize this and 
see if we cannot get it together.''
    Thank you so much.
    [The prepared statement of Mr. Stewart follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Horn. Well, we thank you.
    That is a real fascinating story. Has that been picked up 
by the press?
    Mr. Stewart. Yes, sir.
    Mr. Horn. Do you have some questions you would like to ask 
first?
    Mr. Flake. Yes.
    Mr. Horn. Please do.
    Mr. Flake. Just a few.
    Mr. Stewart, given what you encountered there and kind of 
taking from the first panel, Mr. Posner talked about strategies 
to coordinate, some of the problems as we have heard are 
resource problems and others are communication and 
coordination.
    On the communication and coordination, a national strategy 
as opposed to a Federal strategy is what has been posed. How do 
you people who work with it on the ground, how do you see that 
playing out?
    The notion is that you do not rely on the Federal 
Government coming in and posing a solution and saying that this 
agency with this agency or you are going to be supporting it 
with this agency or that. What would be the appropriate 
vehicle, an association of State legislators or some 
association of police forces out there?
    I guess I will close it, if you could answer that briefly, 
your thoughts about a national strategy as opposed to a Federal 
strategy and how that might help on the ground in a situation 
because we have had a real world situation that Mr. Stewart has 
encountered; how that would have perhaps helped in that regard.
    Mr. Posner. I have been impressed hearing just about the 
vitality of our system. I mean, the Federal Government, for 
example, has not recognized the security problems of the water 
systems, but you have the Association of Water Resource 
Managers that is really taking a proactive role in this system.
    I think we are seeing a lot of that in the emergency 
management community, how with some support from FEMA the State 
and local managers are taking this problem on themselves and 
developing professional standards, certification procedures.
    I am not familiar with the communications area, but somehow 
being able to--and I am reading the really wonderful report 
that this plays, this effort that you worked on together, and I 
am familiar with some of the other people there, and they are 
all first rate people, and you have really laid out an agenda 
that really does not just focus on the Federal Government.
    I mean, certainly we can facilitate, but it is, I think, a 
responsible strategy to say that this is really national 
problems and not Federal, and part of that is getting private 
sector. Part of it is getting the professional association 
officials together to really do something about some of these 
problems.
    Mr. Flake. Specifically, Mr. Stewart, if you were to 
encounter a situation like this again, say we had a similar 
attack in Chicago or L.A. and you were called to go in again. 
What do you think we have learned already that would make it 
easier for you to get around and do in a day what you had to 
spend 4 days doing?
    Mr. Stewart. Well, after myself and my staff got back to 
Chandler there to our office, we started having general 
conversations, and it just about has not stopped to this day. 
What if, what if, what if?
    Because nobody knows anything about us, we started kind of 
putting together our own plan. What if we had some kind of an 
org. chart put together around the country that says, OK, 
Stewart Electric & Communications. They live in Chandler, 
Arizona, and we do happen to know for their staff. Now, I went 
out and bought five cows since New York. On my own I have spent 
several thousands and thousands of dollars to put together a 
team of emergency what we call cows, cells on wheels, which is 
what we pulled back to New York and which New York is operating 
heavily on right now.
    Mr. Flake. I thought you were talking about cattle.
    Mr. Stewart. Yes.
    Mr. Flake. What in the world?
    Mr. Stewart. A cow. I used that so easy. It is a cell site 
on wheels. It is a portable cell site, and we hauled those back 
to New York.
    And so we went to the effort or the expense now that we 
have actually purchased five, and we have them sitting in our 
yard right now just in the event that these things or another 
situation like this was to happen again.
    You talk about your water system. A lot of the water 
systems and pumps, sewer treatment plants and what have you, 
they are all hauled or a lot of them are hauled via some type 
of broad band radio system.
    You can simply take and knock one of those radios off the 
ground, and until a serviceman gets out there and manually 
opens or closes that pump, you have got a major problem going 
on.
    Our communications within our own home jurisdiction, 
Phoenix, Mesa, Tempe, this entire State right here relies so 
heavily. If you want terrorist activity to really become a pain 
in your side, let him start working on our communication 
system, and he will drive us crazy. You can already see what is 
going on with our Internet with the hackers and viruses going 
around there.
    It is very simple to get to these systems. They are on 
mountaintops. They are on rooftops. They are sitting out on a 
pump station for the CAP with a little Aggie sitting out there 
that controls that entire station out there.
    What we need is once this happens and our terrorist 
activity may become small like this to where it's just an 
ongoing nagging, going on type of situation to where we know 
where we can get the resources and we know where we can find 
the people that can respond to that.
    A pre-qualifying list. Take my key employees, the people 
that would really count. The eight that I had back in New York 
are the best of the best, like I said, when it comes to 
telecommunications or microwave and analyzing problems with 
taking data and moving it through air. I have got eight 
individuals that just are second to none.
    Those people to be qualified and somebody to know where 
they are if they are needed. Something simple as starting at 
the ground roots there and start building a private sector 
because we are the one that is going to have to fight this war 
when it goes on.
    Mr. Flake. Just to followup on that, Mr. Spencer, we talked 
about problems of communication and coordination between the 
Federal Government and the State, the State and the local 
agencies. Is there sufficient coordination and cooperation 
right now between local agencies and the private sector, as Mr. 
Stewart who actually will come in and be partners with various 
governments in this?
    Is there need for that?
    Mr. Spencer. There is much more that could be done. We work 
real closely with the utilities, but I did not know of his 
existence. You know, we are aware of cell on wheels, but we 
would have gone to the telephone company to find those, and 
hopefully you are on their list.
    Mr. Stewart. And whether that list would ever get back to 
somebody like you guys, you know, it is hard to tell. That is 
why I keep kind of going back to an Arizona, if you will, or 
national and expanding from there. Some type of org. chart.
    If we have a major disaster in telecommunications, let's go 
over here in this category over here and let's start seeing who 
does this and who can put response teams together on that.
    Now we have got DPS and the military and everybody to 
protect us and secure that area off, but we have got to get 
that thing rebuilt. Well, just an awfully lot of our 
communications throughout this country and the world is built 
by the private sector. The systems that we have here in Arizona 
we know more about than the people that have their name on them 
because we build them. We maintain them and service them for 
those companies.
    Mr. Posner. If I could just maybe add one other point.
    Mr. Flake. Go ahead.
    Mr. Posner. In response, Congressman Flake, to your 
concern, there is a national infrastructure protection council 
that is established under Presidential directives, and they do 
have subcommittees of working level groups that are supposed to 
be pulling together exactly what you are saying at the national 
level, recognizing like we did in Y2K that this is not a 
Federal--it is a national problem, and that the private sector 
really commands the key resources.
    They are supposed to be pulling together strategy, No. 1, 
to map out who does own this problem. Who are the key actors 
and what are the strategies?
    You know, that is something that, again, in the 
communications area across the board there are efforts that are 
underway to do that, I believe. We have not looked at that 
particular sector, but you are pointing up an important----
    Mr. Stewart. But I believe that is starting being built at 
the State level and then growing to the national level, but in 
order for it to happen, we have got disaster recovery programs 
that were put out for our wireless communications field 
industry several years ago, which I was very proud to work on 
one with one of our carriers and played a major role in 
developing and designing and being ready to respond to them.
    People tend to go to sleep. People tend to forget about 
this. So that if we do not go from a Federal level and maybe a 
Federal mandate and then start at the State level and have it 
grow and then connect to a national and then a Federal level, 
as Americans we get kind of comfortable with the fact that, 
well, that happened in New York and now we have got baseball 
season getting ready to start. We get lax.
    I do not want to see this after what we went through in 
Manhattan for 4 days of hell back there. If this should happen 
again, we should be a lot more prepared in the private sector 
than what we are right now.
    Mr. Horn. Let me pursue another question that is, I guess, 
three decades ago. I was a university president, and we 
participated in the emergency situations because we had our own 
State police force on the campus. It was a campus the size of 
Arizona State University, and you have got a very fine 
university.
    And we did these exercises, and the problem was nobody 
could communicate with anybody because we did not have the 
frequencies. At that time it was all on the East Coast, and you 
had to squeeze them out in order to have our people.
    Now, our first hearing was in Nashville, Tennessee a few 
weeks ago, and part of the situation was in response to a 
question like this, that the military helicopters, and they 
have a major I think 82nd Airborne fairly near, and the 
civilian helicopters had a completely different frequency. They 
could not talk to each other. We went through the trauma 
sections of the hospital there, and Vanderbilt, just like 
Arizona State, is a very fine university.
    But if you cannot get the communications out there, it is 
just a blind corridor, and I wonder what it is doing at either 
the national level, the State level or trying to get--what do 
you need? I saw here interoperability of radio communications 
and the 700 public safety spectrum.
    Is that so difficult? Are we running out of some of those 
frequencies and all or levels of frequency? And how do we deal 
with that? What have we dealt with in the State of Arizona from 
Flagstaff to there?
    Mr. Harris. I do not know about communications, but locally 
we are switching over to the 800 megahertz band so that we 
would be able to communicate with fire. Mesa, Tempe, 
Scottsville, Phoenix, all of those agencies would be on the 
same frequencies, and they would be able to communicate at 
least locally.
    Second, 700, as I understand it, is the next group of bands 
of frequencies that are becoming available. When you get into 
that group of bands, it is not that there is not enough bands 
for public safety and for the private sector. It is how they 
are arranged.
    And, again, I am not an expert in this area, but when they 
are not arranged appropriately, you can get cross-talk between 
the bands, and it stops the communications.
    So it is more when we look at the FCC as I understand it. 
It is not in how many bands there are, but in how they are 
arranged that is going to be critical so that we do not have 
that cross-talk with private bands.
    Mr. Horn. Could it be jammed also easily or just the cross-
talk does it?
    Mr. Harris. You are out of my area of expertise already.
    Mr. Spencer. Just experience, it is kind of a good news/bad 
news type thing. The 800 megahertz trunking looks like it has 
the potential to tie a lot of us together, and on the fly we 
can create talk groups almost, you know, within minutes.
    The bad news is that it does not work well in buildings. I 
am not sure what they were using in New York City, but I 
understand within the Towers they lost communications on the 
radios, and I am not sure if it was because of the frequencies, 
but it is definitely a problem within our own command center.
    Our EOC, we have to have an internal repeater just to be 
able to make the frequency go out.
    Second of all, there are certain cell phone companies that 
have close frequencies that interfere with it. I know, I 
believe, it was Phoenix PD was on a SWAT mission and they had 
to pull back because they lost communications because they were 
close to one of these cell sites and it blanked out their 800 
megahertz.
    Mr. Horn. Yes. We were told that there was a real problem 
where cellular phones just went out. So is there in between the 
fire departments, the police departments, the States, and the 
FEMAs--do you know anybody who is working on this or are they 
just saying, well, it is a bad problem?
    Mr. Spencer. Well, on the interference side of things, they 
are looking at it. I think part of the problem is that 
particular cell company that is having the problems, they are 
also within that close band, and that is where you are getting 
some of that crossover.
    In this area, it is kind of a catch as catch can. As soon 
as the cities and towns switch to 800 megahertz, there is a 
wireless committee that is somewhat organizing it, and again, 
there is a bit of a problem. Some of them have bought the 
analogue system and the newer systems coming on are digital. So 
the older analogue systems are now going to have to somehow 
convert or get translators that will turn that into digital so 
that they will continue to talk on that and be able to talk to 
each other.
    It is as close, I think, as we have ever gotten to 
something that will help us all talk together.
    Another system that is out there that I know our local 
National Guard's community support team has is a magical band 
that will tie some of these frequencies together, but I think 
it is limited to two or three frequencies at a time. It will 
make it so that you are able to talk to each other as though 
you are on the same frequency.
    Expansion of that type of equipment might not hurt.
    Mr. Horn. Staff tells me that the Federal Aviation 
Administration has instituted a policy that would free up the 
space for emergency officials, while limiting cell space for 
the public.
    Oh, OK. It is the Federal Communications Commission. That 
is what I thought.
    So that would make some sense. Do you think so?
    Mr. Harris. I have been told the FCC is also conducting 
hearings on the problem.
    Mr. Horn. Good.
    Mr. Stewart. We will make one suggestion that 800 megahertz 
band be looked at very, very close.
    Mr. Flake. I had one question for Mr. Gallier.
    Initially right after September 11th, we were warned of 
chemical and biological attacks and were told the water systems 
were certainly vulnerable.
    Later on there seem to be kind of a pull-back, that, no, 
there's really nothing that they can do. It would be very 
difficult and they would have to be very, very sophisticated at 
that to use the water systems to terrorize.
    What have we settled on? How big of a threat is it?
    You mentioned that you have to weigh or balance your meter 
resources to protect against it. How much of a threat do you 
think it is in Arizona? Have we got enough water to matter 
here?
    Mr. Gallier. Congressman, I think it is kind of a Gordion 
knot, if you will. I think the initial statements that said 
there was little risk were really based on an assumption that 
an attack would occur within the raw water supply itself or at 
the point where the raw water supply comes into the treatment 
facility.
    You have facilities like mine that treat approximately 50 
million gallons of water a day per facility. It would take a 
lot of poison or biological toxin to have an impact, more than 
most people could really do effectively.
    There are other risks though. A number of groups are 
beginning to raise the issue of storage, large quantity storage 
of high pressurized gas cylinders filled with chlorine gas. 
It's actually in a liquid form because it is under so much 
pressure.
    Thousands of pounds of chlorine are stored at water and 
waste water facilities throughout the country, throughout the 
world. All of our systems of protection are designed 
essentially around protection against human error or accidental 
release. They are really not adequately designed; the systems 
are not adequately designed to protect against a significant 
terrorist attack.
    That is one issue that I think as an industry we are very 
concerned about.
    That does not directly affect the quality of the drinking 
water. It directly affects the areas immediately around any 
facility where they are stored. So there is a significant issue 
there.
    The other potential is the issue of, frankly, contamination 
happening intentionally within the distribution system. As 
Chairman Horn indicated at the beginning, that is a major 
concern that we have in the industry, and I am going to be 
honest. We do not have clear-cut answers to that right now. My 
suggestions that significant additional research and 
development are needed are really focused on that area as much 
as anything else.
    So when someone talks about dumping water in a canal or 
poisons in a canal or into a lake or some other water source, 
that is really not where the threat is. The threat is in the 
distribution and, alternately, the physical threat of what 
happens if the hazardous chemicals that are used in some places 
in the treatment system are released.
    Mr. Spencer. We actually ran an exercise where we modeled a 
plume from a chlorine tanker at a water treatment plant, and it 
put out a plume over ten miles long, over a mile wide, and that 
was at what is known as an IDLH level, or immediately dangerous 
to life and health. If you are in it a very short-time, you 
have permanent damage.
    So it is a huge potential that is out there for an attack.
    Mr. Gallier. And I would add in most of those cases, there 
are technological alternatives available, but they are not 
cheap.
    To give you an example, I have done some back-of-the-
envelope work with our engineering staff and others to look at 
what it would take to convert our two water treatment plants. 
It is just one city serving approximately 170,000 people.
    We could be looking at costs as high as $30 million in 
capital to do that, and then when you look at the operating 
component of that, I pay for chlorine right now roughly $50,000 
to $60,000 a year on average. It is not a high dollar item 
within our budget.
    But to replace that with some of these other alternatives, 
you would easily be talking in excess of $1 million a year. You 
start multiplying that through other threats that we may face, 
that is an issue that we have to be concerned about.
    Mr. Horn. I am told that there are some processes and 
chemicals that could get the poisons out of water and get 
purification is that pretty well known throughout those who 
have your responsibility on the protection of the water 
resources?
    Mr. Gallier. Well, Congressman, that depends on what the 
threat would be, what type of chemical or biological 
contaminant would be in place. Some are relatively easy to deal 
with. The organism itself might be very hazardous, but the 
treatment necessary to render it harmless is relatively 
straightforward.
    Some have a minor health effect, but are very difficult to 
control. There are many, many, many variables that we have to 
deal with.
    Mr. Horn. When you get done cleaning up Arizona, you should 
probably come to Washington, DC. The Corps of Engineers puts in 
absolutely wonderful purified water, and it goes through a 
distribution system of the city of Washington which we all have 
given up on, and we just now--well, Speaker Gingrich, when he 
got into power, he said, ``You can get the bottled water for 
your constituents, but you cannot really drink it.''
    But we all drink it. So that is a problem, too, in terms of 
distribution systems.
    Mr. Gallier. Distribution system is a key part of this.
    Mr. Horn. Yes.
    Mr. Gallier. That is why it is very important that the 
research and development that is ongoing right now continue.
    I do not think there is a single problem we face that there 
is not a fix for. In some cases it is going to take some time 
and in other cases it is going to take time and money. But 
there are fixes out there for all of these issues, and there is 
no reason to believe that there is any substantial risk of that 
type of attack at this time.
    But it is important to recognize that the risk is there, 
and we do need to recognize it, and we need to deal with it.
    Mr. Posner. Mr. Chairman, if I could just add.
    Mr. Horn. Yes.
    Mr. Posner. The discussion here is illustrative of some 
broader concerns we have addressed, which is that homeland 
security and the costs of paying for what we are dealing with 
are substantial and really kind of bump up against other 
priorities. And we have talked about the need for agencies.
    The Coast Guard faces this, for example. They have had a 
long established mission to trace down drug dealers and others 
dealing with public safety. They are having to really rethink 
because they have a totally new mission protecting the ports 
now.
    They have had to pull their boats back in, and they have to 
face some painful tradeoffs because money is not unlimited, and 
particularly in State and local budgets, or the Federal level. 
How do you do that? How do you go about reassessing your 
priorities?
    And that may be the process that ultimately water systems 
have to rethink because you have many standards that you are 
trying to comply with for safe drinking water, and now you have 
this new set of demands.
    I know that we challenged OMB and the Federal agencies to 
think more explicitly about that.
    Mr. Horn. How realistic a threat would airborne toxins be 
to the area?
    And reports have confirmed or I do not know if they have 
really confirmed, but they have been considered that the 
terrorists of the September 11th situation explored that 
option.
    Mr. Gallier. I probably would not be the appropriate person 
to try to answer that because that is a different medium 
entirely.
    Mr. Horn. Not just allergy off the trees, but if they are 
put in dust cropping and all of that.
    Mr. Gallier. Oh, you mean an airborne addition?
    Mr. Horn. Yes, airborne. Sorry.
    Mr. Gallier. I see. You know, we have had some concern 
about that in the industry. There were reports early on of crop 
dusters going in low over reservoirs, and then combined with 
reports that some of the Al Qaida cell members were trying to 
get information on how to operate crop dusters and all of that.
    Personally I think that if the use intended would be to 
contaminate a water supply, I think the risk is pretty low, 
again, for that same reason.
    It is the old dilution is the solution to pollution 
argument. It works the same for poisons and toxins. You would 
have to have a very, very high amount, a large quantity amount 
relative to the amount of water that is being treated in the 
system in order to have an effect.
    But if the goal is to introduce fear into a population, 
which is one of the major goals of terrorism, then you could 
have some effectiveness in doing that. Anything you do to cause 
fear in a population is going to have some benefit if that is 
your goal.
    As I said at the beginning, people want to be able to 
depend on their water being safe when they open the tap, and 
right now it is. Our goal is to make sure that it continues to 
be.
    Mr. Horn. Any other questions?
    Well, let me just say we thank you very much for this 
Friday that I am sure your families are waiting for you at 
home.
    I want to thank the people that helped us prepare this. 
Steve Jewett, the Governor's Homeland security coordinator. 
Marcus Aurelius, the emergency management coordinator for the 
city of Phoenix. Shannon Wilhelmsen, director of government 
relations for the city of Tempe. Amber Wakeman, the government 
relations management assistant for the city of Tempe. Skip 
Neeley, communications and media relations for this fine city. 
Greg Wolfe, communications and media relations for the city of 
Tempe. Josh Lader, the executive assistant to Office of Mayor 
Neil Giuliano's office. Mark Minieri, intern, Office of the 
Mayor. And the court reporter today is Allison Long, and we 
thank you. It has been a long afternoon, and we are delighted 
to have you here.
    Our own staff, Mr. J. Russell George is staff director and 
chief counsel, back of me. To my left, Henry Wray is the senior 
counsel. And Justin Paulhamus is majority clerk. Other 
congressional staff are Steve Voeller, chief of staff to 
Congressman Jeff Flake. Pat Curtin, office manager for 
Congressman John Shadegg.
    We appreciate all of the help that we got. So thank you 
all, especially when you have come both close and far.
    So if you have any thoughts, write us a letter. We will put 
it in the hearing. What we are trying to do is when we get to 
about maybe 15 or 20 cities, we want to put that in a report, 
and hopefully it will be useful.
    It is not going to be useful unless we have your ideas 
because we do not know all of this stuff, and we do not pretend 
to. That is why we hold these hearings, and so we would welcome 
any thought you have got.
    You might say, ``Oh, well, they already know that.''
    Well, often we do not know it. So we would like your help.
    With that, I thank Representative Flake for being here. I 
have seen him on the floor. He is a great representative for 
the State of Arizona. He is an eloquent speaker, more than most 
of his class certainly.
    We will not tell the rest of them that. [Laughter.]
    But it is true. I have watched him do these things, and so 
you have got a good voice in Washington, and we are glad to 
have him here.
    Thank you for taking all of the time when he could be 
shaking constituents' hands.
    So thank you. We are adjourned.
    [Whereupon, at 3:45 p.m., the subcommittee meeting was 
adjourned.]

                                   - 

</pre></body></html>
